App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL Z. CROWE; LAWRENCE K.
PETERSON I; OREGON CIVIL
LIBERTIES ATTORNEYS, an
Oregon nonproﬁt corporation,
Plaintiffs-Appellants,
v.
OREGON STATE BAR, a Public
Corporation; OREGON STATE BAR
BOARD OF GOVERNORS; VANESSA A.
NORDYKE, President of the Oregon
State Bar Board of Governors;
CHRISTINE CONSTANTINO, Presidentelect of the Oregon State Bar
Board of Governors; HELEN MARIE
HIERSCHBIEL, Chief Executive
Ofﬁcer of the Oregon State Bar;
KEITH PALEVSKY, Director of
Finance and Operations of the
Oregon State Bar; AMBER HOLLISTER,
General Counsel for the Oregon
State Bar,
Defendants-Appellees.

No. 19-35463
D.C. No.
3:18-cv-02139-JR

App. 2
DIANE L. GRUBER; MARK RUNNELS,
Plaintiffs-Appellants,
v.

No. 19-35470
D.C. No.
3:18-cv-01591-JR

OREGON STATE BAR;
CHRISTINE CONSTANTINO;
HELEN MARIE HIERSCHBIEL,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Michael H. Simon, District Judge, Presiding
Argued and Submitted May 12, 2020
Portland, Oregon
Filed February 26, 2021
Before: Jay S. Bybee and Lawrence VanDyke, Circuit
Judges, and Kathleen Cardone,* District Judge.
Per Curiam Opinion;
Partial Concurrence and Partial Dissent by
Judge VanDyke
COUNSEL
Jacob Huebert (argued) and Timothy Sandefur, ScharfNorton Center for Constitutional Litigation at the
Goldwater Institute, Phoenix, Arizona; Luke D. Miller,
Military Disability Lawyer LLC, Salem, Oregon; for

* The Honorable Kathleen Cardone, United States District
Judge for the Western District of Texas, sitting by designation.

App. 3
Plaintiffs-Appellants Daniel Z. Crowe, Lawrence K.
Peterson I, and Oregon Civil Liberties Attorneys.
Michael L. Spencer (argued), Klamath Falls, Oregon,
for Plaintiffs-Appellants Diane L. Gruber and Mark
Runnels.
Elisa J. Dozono (argued) and Taylor D. Richman, Miller Nash Graham & Dunn LLP, Portland, Oregon;
Steven M. Wilker (argued) and Megan K. Houlihan,
Tonkon Torp LLP, Portland, Oregon; Michael Gillette,
Schwabe Williamson & Wyatt P.C., Portland, Oregon;
for Defendants-Appellees.
Ellen F. Rosenblum, Attorney General; Benjamin
Gutman, Solicitor General; Christopher A. Perdue,
Assistant Attorney General; Department of Justice,
Salem, Oregon; for Amicus Curiae State of Oregon.
Vanessa L. Holton, General Counsel; Robert G. Retana,
Deputy General Counsel; Brady R. Dewar, Assistant
General Counsel; Ofﬁce of the General Counsel, State
Bar of California, San Francisco, California; for Amicus
Curiae State Bar of California.
Mary R. O’Grady and Kimberly Friday, Osborn Maledon P.A., Phoenix, Arizona, for Amicus Curiae State
Bar of Arizona.
OPINION
PER CURIAM:
To practice in Oregon, every lawyer must join and
pay annual membership fees to the Oregon State Bar

App. 4
(“the Bar” or “OSB”). In these cases, Plaintiffs1 claim
these compulsions violate their freedoms of speech and
association as guaranteed by the First Amendment,
made applicable to the states by the Due Process
Clause of the Fourteenth Amendment.
The district court dismissed all of Plaintiffs’
claims, concluding that the Bar was immune from suit
under the Eleventh Amendment; that Plaintiffs’ free
association and free speech claims were barred by
precedent; and that the Bar’s objection and refund procedures were constitutionally adequate. We agree with
the district court that precedent forecloses the free
speech claim, but neither the Supreme Court nor this
court has resolved the free association claim now before us. For the reasons that follow, Plaintiffs may have
stated a viable claim that Oregon’s compulsory Bar
membership requirement violates their First Amendment right of free association. We accordingly afﬁrm in
part, reverse in part, and remand to the district court
with instructions.
I.

BACKGROUND

A. The Oregon State Bar
“The Oregon State Bar is a public corporation and
an instrumentality of the Judicial Department of the
1

“Plaintiffs” refers to Appellants in both No. 19-35463
(Daniel Crowe, Lawrence Peterson, and the Oregon Civil Liberties Attorneys (individually referred to as the “Crowe Plaintiffs”)) and No. 19-35470 (Diane Gruber and Mark Runnels
(individually referred to as the “Gruber Plaintiffs”)).

App. 5
government of the State of Oregon.” OR. REV. STAT.
§ 9.010(2). OSB is an integrated bar, meaning lawyers
must join it and pay an annual membership fee to
practice law in Oregon. Id. §§ 9.160(1), 9.200. OSB is
administered by its board of governors, who may
“adopt, alter, amend[,] and repeal” the Bar’s bylaws. Id.
§ 9.080. “[A]t all times,” the board must “serve the public interest” by “[r]egulating the legal profession and
improving the quality of legal services; [s]upporting
the judiciary and improving the administration of justice; and [a]dvancing a fair, inclusive[,] and accessible
justice system.” Id. The State of Oregon is not responsible for OSB’s debts. Id. § 9.010(6). Instead, OSB satisﬁes its own ﬁnancial needs and obligations from the
membership fees it collects. Id. § 9.191(3). Subject to
oversight by the Oregon Supreme Court, OSB administers bar exams, investigates applicants’ character
and ﬁtness, formulates and enforces rules of professional conduct, and establishes minimum continuing
legal education requirements for Oregon attorneys. Id.
§§ 9.210, 9.490, 9.114.
OSB also publishes a monthly Bar Bulletin, which
is subject to the bylaws’ general communications policy:
Communications of the Bar and its constituent groups and entities, including printed material and electronic communications, should
be germane to the law, lawyers, the practice of
law, the courts and the judicial system, legal
education and the Bar in its role as a mandatory membership organization. Communications, other than permitted advertisements,

App. 6
should advance public understanding of the
law, legal ethics and the professionalism and
collegiality of the bench and Bar.
OSB Bylaws § 11.1.2 OSB’s Chief Executive Ofﬁcer
“has sole discretion . . . to accept or reject material
submitted to the Bar for publication.” Id. § 11.203.
“[P]artisan political advertising is not allowed[,]” and
“[p]artisan political announcements or endorsements
will not be accepted for publication as letters to the editor or feature articles.” Id. § 11.4.
OSB’s legislative and public policy activities must
reasonably relate to any of the following nine subjects:
Regulating and disciplining lawyers; improving the functioning of the courts including
issues of judicial independence, fairness, efﬁcacy and efﬁciency; making legal services
available to society; regulating lawyer trust
accounts; the education, ethics, competence,
integrity and regulation of the legal profession; providing law improvement assistance
to elected and appointed government ofﬁcials;
issues involving the structure and organization of federal, state and local courts in or affecting Oregon; issues involving the rules of
practice, procedure and evidence in federal,
state or local courts in or affecting Oregon; or
issues involving the duties and functions of
judges and lawyers in federal, state and local
courts in or affecting Oregon.
2

The OSB Bylaws are available at http://www.osbar.org/_
docs/rulesregs/bylaws.pdf.

App. 7
Id. § 12.1. The Bar maintains that all its communications and activities are intended to adhere to the
above-listed topics, and considers all these topics germane to its regulatory purpose.
B. The April 2018 Bulletin Statements
At the heart of Plaintiffs’ suits are two statements
published alongside each other in the April 2018 edition of the Bulletin, reproduced below in full. The ﬁrst
was attributed to the Bar, signed by its leaders, and
stated as follows:
Statement on White Nationalism and
Normalization of Violence
As the United States continues to grapple
with a resurgence of white nationalism and
the normalization of violence and racism, the
Oregon State Bar remains steadfastly committed to the vision of a justice system that
operates without discrimination and is fully
accessible to all Oregonians. As we pursue
that vision during times of upheaval, it is
particularly important to understand current
events through the lens of our complex and
often troubled history. The legacy of that history was seen last year in the streets of Charlottesville, and in the attacks on Portland’s
MAX train. We unequivocally condemn these
acts of violence.
We equally condemn the proliferation of
speech that incites such violence. Even as we
celebrate the great beneﬁcial power of our

App. 8
First Amendment, as lawyers we also know it
is not limitless. A systemic failure to address
speech that incites violence emboldens those
who seek to do harm, and continues to hold
historically oppressed communities in fear
and marginalization.
As a uniﬁed bar, we are mindful of the breadth
of perspectives encompassed in our membership. As such, our work will continue to focus
speciﬁcally on those issues that are directly
within our mission, including the promotion
of access to justice, the rule of law, and a
healthy and functional judicial system that
equitably serves everyone. The current climate of violence, extremism and exclusion
gravely threatens all of the above. As lawyers,
we administer the keys to the courtroom, and
assist our clients in opening doors to justice.
As stewards of the justice system, it is up to
us to safeguard the rule of law and to ensure
its fair and equitable administration. We
simply cannot lay claim to a healthy justice
system if whole segments of our society are
fearful of the very laws and institutions that
exist to protect them.
In today’s troubling climate, the Oregon State
Bar remains committed to equity and justice
for all, and to vigorously promoting the law as
the foundation of a just democracy. The courageous work done by specialty bars throughout
the state is vital to our efforts and we continue
to be both inspired and strengthened by those
partnerships. We not only refuse to become
accustomed to this climate, we are intent on

App. 9
standing in support and solidarity with those
historically marginalized, underrepresented
and vulnerable communities who feel voiceless within the Oregon legal system.
Across the page, a “Joint Statement of the Oregon Specialty Bar Associations Supporting the Oregon State
Bar’s Statement on White Nationalism and Normalization of Violence” stated:
The Oregon Asian Paciﬁc American Bar Association, the Oregon Women Lawyers, the Oregon Filipino American Lawyers Association,
OGALLA-The LGBT Bar Association of Oregon, the Oregon Chapter of the National Bar
Association, the Oregon Minority Lawyers
Association, and the Oregon Hispanic Bar
Association support the Oregon State Bar’s
Statement on White Nationalism and Normalization of Violence and its commitment to
the vision of a justice system that operates
without discrimination and is fully accessible
to all Oregonians.
Through the recent events from the Portland
MAX train attacks to Charlottesville, we have
seen an emboldened white nationalist movement gain momentum in the United States
and violence based on racism has become
normalized. President Donald Trump, as the
leader of our nation, has himself catered to
this white nationalist movement, allowing it
to make up the base of his support and
providing it a false sense of legitimacy. He has
allowed this dangerous movement of racism
to gain momentum, and we believe this is

App. 10
allowing these extremist ideas to be held up
as part of the mainstream, when they are not.
For example, President Trump has espoused
racist comments, referring to Haiti and African countries as “shithole countries” and
claiming that the United States should
have more immigrants from countries like
Norway. He signed an executive order that
halted all refugee admissions and barred people from seven Muslim-majority countries,
called Puerto Ricans who criticized his administration’s response to Hurricane Maria “politically motivated ingrates,” said that the white
supremacists marching in Charlottesville,
North Carolina in August of 2017 were “very
ﬁne people,” and called into question a federal
judge, referring to the Indiana-born judge as
“Mexican,” when the race of his parents had
nothing to do with the judge’s decision. We are
now seeing the white nationalist movement
grow in our state and our country under this
form of leadership.
As attorneys who lead diverse bar associations throughout Oregon, we condemn the violence that has occurred as a result of white
nationalism and white supremacy. Although
we recognize the importance of the First
Amendment of the United States Constitution and the protections it provides, we condemn speech that incites violence, such as
the violence that occurred in Charlottesville.
President Trump needs to unequivocally condemn racist and white nationalist groups.
With his continued failure to do so, we must
step in and speak up.

App. 11
As attorneys licensed to practice law in Oregon, we took an oath to “support the Constitution and the laws of the United States and of
the State of Oregon.” To that end, we have a
duty as attorneys to speak up against injustice, violence, and when state and federal laws
are violated in the name of white supremacy
or white nationalism. We must use all our resources, including legal resources, to protect
the rights and safety of everyone. We applaud
the Oregon State Bar’s commitment to equity
and justice by taking a strong stand against
white nationalism. Our bar associations pledge
to work with the Oregon State Bar and to
speak out against white nationalism and the
normalization of racism and violence.
OSB maintains both Bulletin statements are
germane to its role in improving the quality of legal
services. When Plaintiffs and other OSB members
complained about the statements, however, the Bar
refunded $1.15 to Plaintiffs and other objectors—the
portion of their membership fees used to publish the
April 2018 Bulletin. On appeal, the Bar explains it
paid the refunds because “it has always sought, in
accordance with its Bylaws, to strictly adhere to the
standards of ‘germane’ speech as set forth in Keller. . . .
[T]he Bar sought to avoid even the appearance of funding non-germane speech, by refunding their proportional dues with interest.”

App. 12
C. District Court Proceedings
Plaintiffs ﬁled these lawsuits against OSB ofﬁcials
and OSB itself, alleging the compelled membership
and membership fee requirements violate their First
Amendment rights. Plaintiffs contend that (1) the two
statements from the April 2018 Bulletin are not germane; (2) compelling them to join and maintain membership in OSB violates their right to freedom of
association; and (3) compelling Plaintiffs to pay—without their prior, afﬁrmative consent—annual membership fees to OSB violates their right to freedom of
speech. In addition, the Crowe Plaintiffs alone contend
that the Bar’s constitutionally mandated procedural
safeguards for objecting members are deﬁcient. And
the Gruber Plaintiffs alone continue to argue on appeal
that OSB is not entitled to sovereign immunity from
suit.
Below, these cases were referred to a magistrate,
who ﬁrst determined that OSB (but not the individual
OSB ofﬁcials) was an “arm of the state” and immune
from suit pursuant to the Eleventh Amendment. The
magistrate then held the OSB statement “was made
within the specific context of promotion of access to
justice, the rule of law, and a healthy and functional
judicial system that equitably serves everyone” and
“[wa]s germane to improving the quality of legal services.” Assuming the Specialty Bars’ statement could
“include[ ] political speech that is not germane to a
permissible topic,” the magistrate noted it was not
technically attributed to OSB but rather a “routinely
publishe[d] statement[ ]” in the Bulletin’s “forum for

App. 13
the exchange of ideas pertaining to the practice of law.”
The magistrate alternatively concluded that, even assuming the statements contained nongermane speech,
Plaintiffs would still have suffered no constitutional
injury because of OSB’s existing safeguards designed
to refund membership funds misused for political purposes.
The magistrate recommended the district court
grant the Bar’s motions to dismiss and deny the
Gruber Plaintiffs’ motion for partial summary judgment. The district court fully adopted the magistrate’s
ﬁndings and recommendations and dismissed these
cases. Plaintiffs timely appealed.
II.

STANDARD OF REVIEW

The district court had jurisdiction pursuant to 28
U.S.C. § 1331 and 28 U.S.C. § 1343. We have jurisdiction under 28 U.S.C. § 1291, and “review de novo a dismissal on the basis of sovereign immunity or for failure
to state a claim upon which relief can be granted.” Ariz.
Students’ Ass’n v. Ariz. Bd. of Regents, 824 F.3d 858,
864 (9th Cir. 2016). Moreover, we must “accept the complaint[e] well-pleaded factual allegations as true, and
construe all inferences in the plaintiff[s’] favor.” Id.
III.

DISCUSSION

Plaintiffs raise the same issues that were before
the district court in their appeals. We will begin with
Plaintiffs’ free speech and free association claims. We

App. 14
consider the parties’ arguments with respect to the
germaneness of the April 2018 Bulletin statements
and the adequacy of OSB’s procedural safeguards as
they pertain to Plaintiffs’ free speech and free association claims. Because we conclude that Plaintiffs have
stated a claim based on their right to free association,
which we must remand to the district court, we will
then address the question of OSB’s immunity from a
suit for damages, a claim only raised by the Gruber
Plaintiffs.
A. Free Speech
In Keller v. State Bar of California, 496 U.S. 1, 13–
14 (1990), the Supreme Court concluded that a state
bar may use mandatory dues to subsidize activities
“germane to those goals” of “regulating the legal profession and improving the quality of legal services”
without running afoul of its members’ First Amendment rights of free speech. Id. As a preliminary matter,
Plaintiffs argue that both April 2018 Bulletin statements constitute political speech nongermane to the
Bar’s role in regulating the legal profession. We need
not decide whether the district court erred in concluding that the Bulletin statements are germane under
Keller (or, in the case of the Specialty Bars’ statement,
not attributable to OSB) for purposes of this appeal
because, even assuming both statements are nongermane, Plaintiffs’ free speech claim fails.
In rejecting the plaintiffs’ free speech claim in
Keller, the Supreme Court subjected integrated bars to

App. 15
“the same constitutional rule with respect to the use of
compulsory dues as are labor unions.” Keller, 496 U.S.
at 13 (adopting Abood v. Detroit Bd. of Educ., 431 U.S.
209, 234–36 (1977) (holding that a union may not fund
from mandatory fees political or ideological activities
nongermane to its collective bargaining duties)). However, the Supreme Court recently overruled Abood
because the “line between chargeable [germane] and
nonchargeable [nongermane] union expenditures has
proved to be impossible to draw with precision,” and
because even union speech germane to collective bargaining “is overwhelmingly of substantial public concern.” Janus v. Am. Fed’n of State, Cnty., & Mun. Emps.,
Council 31, 138 S. Ct. 2448, 2477, 2481 (2018) Plaintiffs argue that, given Keller’s reliance on Abood, faithful application of Keller now requires that we consult
Janus in analyzing their Keller claim and apply exacting scrutiny. See id. at 2477, 2486. According to Plaintiffs, OSB engages in political and ideological activities
(e.g., the Bulletin statements), so forcing them to pay
mandatory membership fees violates their free speech
rights. Plaintiffs urge that, under Janus, OSB’s membership fee requirement cannot survive exacting
scrutiny, and therefore, membership fees may only be
constitutionally assessed if attorneys provide prior,
afﬁrmative consent.
Given Keller’s instruction that integrated bars adhere to the same constitutional constraints as unions,
496 U.S. at 13, Plaintiffs’ argument is not without
support. But Keller plainly has not been overruled.
See Janus, 138 S. Ct. at 2498 (Kagan, J., dissenting)

App. 16
(noting that “today’s decision does not question” cases
applying Abood, including Keller). Although Abood’s
rationale that Keller expressly relied on has been
clearly “rejected in [another] decision[ ], the Court of
Appeals should follow the [Supreme Court] case which
directly controls, leaving to [the Supreme] Court the
prerogative of overruling its own decisions.” Agostini v.
Felton, 521 U.S. 203, 237 (1997) (quoting Rodriguez de
Quijas v. Shearson/Am. Express, Inc., 490 U.S. 477, 484
(1989)). We are a lower court, and we would be scorning
Agostini’s clear directive if we concluded that Keller
now prohibits the very thing it permitted when decided.3
In the alternative, the Crowe Plaintiffs alone insist that, assuming mandatory dues remain constitutionally permissible, the district court nevertheless
erred in concluding that OSB provides adequate procedural safeguards. As discussed above, Keller subjected
integrated bars to the same constitutional constraints
as unions, allowing them to use compulsory dues only
to regulate attorneys or improve the quality of their
States’ legal professions—but not for “activities of an
ideological nature which fall outside of those areas of
activity.” 496 U.S. at 13–14. Having saddled integrated
bars with this “Abood obligation,” the Court concluded
they could satisfy that obligation “by adopting the
sort of procedures described in Hudson.” Id. at 17
3

Because we do not think the Supreme Court has clearly abrogated or altered Keller’s holding, our precedent likewise bars
Plaintiffs’ requested relief as to this claim. See Gardner v. State
Bar of Nev., 284 F.3d 1040, 1042–43 (9th Cir. 2002).

App. 17
(referencing Chicago Teachers Union v. Hudson, 475
U.S. 292 (1986)). At a minimum, Hudson’s safeguards
“include an adequate explanation of the basis for the
[compulsory] fee, a reasonably prompt opportunity to
challenge the amount of the fee before an impartial decisionmaker, and an escrow for the amounts reasonably in dispute while such challenges are pending.”
Hudson, 475 U.S. at 310.
Here, OSB’s bylaws provide a dispute resolution
procedure for a “member of the Bar who objects to the
use of any portion of the member’s bar dues for activities he or she considers promotes or opposes political
or ideological causes. . . .” OSB Bylaws § 12.600. The
objecting member must notify OSB’s Board of Governors, and “[i]f the Board agrees with the member’s objection, it will immediately refund the portion of the
member’s dues that are attributable to the activity,
with interest.” Id. § 12.601. If the Board disagrees with
the objecting member, it offers binding arbitration before a neutral decisionmaker who conducts a hearing
and promptly decides “whether the matters at issue
are acceptable activities for which compulsory fees
may be used under applicable constitutional law.” Id.
§ 12.602. If the objector prevails, OSB pays the same
refund described above; conversely, if OSB prevails, the
matter is closed. Id.
The Crowe Plaintiffs argue that OSB’s procedures
are deficient because (1) OSB does not provide an

App. 18
independently audited report4 explaining how mandatory dues are calculated; and (2) OSB does not provide
the required escrow procedure. We disagree.
First, to the extent the Crowe Plaintiffs urge us to
require wholesale application of the procedures in
Hudson in this context, we decline to do so. Nowhere
does Keller require state bars to adopt procedures
identical to or commensurate with those outlined in
Hudson. 496 U.S. at 17 (“[A]n integrated bar could certainly meet its Abood obligation by adopting the sort of
procedures described in Hudson.”) (emphasis added).
Indeed, the Court in Keller explicitly recognized that it
lacked the “developed record” available in Hudson and
accordingly held that “[q]uestions [of ] whether one or
more alternative procedures would likewise satisfy
that obligation are better left for consideration upon a
more fully developed record.” Id. Thus, we decline to
require an independently audited report and escrow
solely because Hudson required as much.
Nor are we persuaded that adherence to Hudson
is necessary—or even effective—to minimize infringement here. With respect to the independent audit,
Hudson required this high-level explanation in the
context of a union that afﬁrmatively planned to engage
in activities unrelated to collective bargaining for
which it could only charge its members. 475 U.S. at 298.
The Court obligated the union to provide a detailed
statement of fees in advance so that nonmembers
4

Plaintiffs concede that OSB publishes information about its
allocation of membership fees each year.

App. 19
could object before being charged for impermissible activities. Id. at 305–07. Hudson fashioned the escrow requirement for the same reason—to “avoid the risk that
[nonmembers’] funds will be used, even temporarily, to
ﬁnance ideological activities unrelated to collective
bargaining.” Id. at 305.
The Crowe Plaintiffs do not allege any similarly
affirmative plans by OSB to use Bar members’ dues
for nongermane purposes. Indeed, OSB maintains a
policy mandating that dues be used for germane activities and communications. See, e.g., OSB Bylaws
§§ 11.1,12.1. As a practical matter, then, advance notice would not have offered additional protection
against the alleged constitutional violations because
OSB would have characterized all of its activities as
germane.5 Similarly, an escrow requirement would not
further minimize risk of infringement because, unlike
in Hudson, the allegedly impermissible speech is only
identiﬁable after the fact.
A refund, which Plaintiffs received here, is the
only meaningful remedy for Plaintiffs’ alleged injuries.
Under the circumstances, OSB provides procedures
adequately tailored to “minimize the infringement” of
its members’ First Amendment rights. Hudson, 475
U.S. at 303. Indeed, we have observed, albeit in dicta,
that “allow[ing] members to seek a refund of the
5

We recognize that there is an argument to be made regarding the propriety of permitting OSB to deﬁne for itself what is
germane. That is not before us. Moreover, such an argument does
not alter the fact that advance notice in this case would not have
prevented Plaintiffs’ asserted constitutional injury.

App. 20
proportion of their dues that the State Bar has spent
on political activities unrelated to its regulatory function” complies with Keller. Morrow v. State Bar of
California, 188 F.3d 1174, 1175 (9th Cir. 1999). OSB
clearly provides that process here.
In sum, nothing in Keller mandates a strict application of the Hudson procedures. Indeed, an application of such procedures here would not have provided
greater protections for Plaintiffs. As alleged, the OSB’s
refund process is sufﬁcient to minimize potential infringement on its members’ constitutional rights. We
therefore afﬁrm the district court as to Plaintiffs’ free
speech claim and the adequacy of OSB’s procedural
safeguards with respect to protecting Plaintiffs’ free
speech rights.
B. Free Association
In Oregon, “a person may not practice law . . . unless the person is an active member of the Oregon
State Bar.” OR. REV. STAT. § 9.160(1). Plaintiffs claim
that because OSB engages in nongermane political activity like the Bulletin statements, this membership
requirement violates their freedom of association under the First and Fourteenth Amendments. We ﬁrst
must decide whether the district court erred by concluding this claim was foreclosed by existing precedent.

App. 21
1. Does existing precedent foreclose Plaintiffs’
Free Association claim?
In Keller, the Supreme Court expressly declined
to address the “freedom of association claim” that attorneys “cannot be compelled to associate with an organization that engages in political or ideological
activities beyond those for which mandatory ﬁnancial
support is justified under the principles of Lathrop
and Abood.” 496 U.S. at 17. Keller explained this unaddressed claim was “much broader . . . than [the
claim] at issue in Lathrop.” Id. (discussing Lathrop v.
Donohue, 367 U.S. 820 (1961)). Plaintiffs here insist
they have presented precisely this yet-to-be-resolved
free association claim. The district court concluded
that Lathrop and Keller foreclosed Plaintiffs’ association claim, so we examine those cases in turn.
In Lathrop, a plurality of the Supreme Court held:
[T]he Supreme Court of Wisconsin, in order
to further the State’s legitimate interests in
raising the quality of professional services,
may constitutionally require that the costs of
improving the profession in this fashion
should be shared by the subjects and beneﬁciaries of the regulatory program, the lawyers,
even though the organization created to attain the objective also engages in some legislative activity.
367 U.S. at 843. On its own terms, Lathrop’s “free association” decision was limited to “compelled ﬁnancial
support of group activities,” id. at 828; the Court emphasized that “[t]he only compulsion to which [Lathrop]

App. 22
ha[d] been subjected by the integration of the bar [wa]s
the payment of the annual dues of $15 per year.” Id. at
828 (“We therefore are confronted . . . only with a question of compelled ﬁnancial support of group activities,
not with involuntary membership in any other aspect.”)
(emphasis added).6
Lathrop also complained that the Wisconsin Bar
engaged in lobbying. See Lathrop, 367 U.S. at 827. But
the Lathrop plurality presumed, on the bare record before it, that all the bar’s activities, including lobbying,
related to “the regulatory program” of “improving the
profession.” Id. at 843. In other words, from what little
the Lathrop plurality could divine, even the bar’s lobbying was germane to the regulatory purposes justifying compelled ﬁnancial association in the ﬁrst place.
Id. Lathrop’s ultimate conclusion was deliberately limited: a state “may constitutionally require that the
costs of improving the profession in this fashion should
be shared by the subjects and beneﬁciaries of the regulatory program.” Id. At bottom, Lathrop merely permitted states to compel practicing lawyers to pay
toward the costs of regulating their profession. See
Keller, 496 U.S. at 9 (discussing “the limited scope of
the question [Lathrop] was deciding”).

6

The Supreme Court framed its decision in this way even
though Lathrop’s actual free association claim was similar to the
broader one Plaintiffs raise here. Lathrop, 367 U.S. at 827 (“The
core of appellant’s argument is that he cannot constitutionally be
compelled to join . . . an organization which . . . utilizes its property, funds and employees for the purposes of inﬂuencing legislation and public opinion toward legislation.”).

App. 23
Decades later, the Court revisited the issue in
Keller. As discussed above, Keller, like Lathrop, concluded that states could compel practicing attorneys to
pay dues to an integrated bar but that those dues could
only “constitutionally fund activities germane to those
goals” of “regulating the legal profession and improving the quality of legal services.” Id. at 13–14. Keller
then augmented the constitutional analysis, prohibiting integrated bars from funding with mandatory dues
“activities having political or ideological coloration
which are not reasonably related to the advancement
of [its regulatory] goals.” Id. at 15. In a later compelled
speech case, the Supreme Court explained that “[t]he
central holding in Keller . . . was that the objecting
members were not required to give speech subsidies for
matters not germane to the larger regulatory purpose
which justiﬁed the required association.” United States
v. United Foods, Inc., 533 U.S. 405, 414 (2001) (emphasis added).
Crucially, Keller expressly declined to address the
petitioners’ separate free association claim: “that they
cannot be compelled to associate with an organization
that engages in political or ideological activities beyond those for which mandatory ﬁnancial support is
justiﬁed under the principles of Lathrop and Abood.”
Keller, 496 U.S. at 17. Keller acknowledged this was “a
much broader freedom of association claim than was at
issue in Lathrop.” Id. (explaining that the Keller petitioners’ free association claim challenged more than
“their ‘compelled ﬁnancial support of group activities’
(quoting Lathrop, 367 U.S. at 828)). Keller and Lathrop

App. 24
thus speak for themselves: the Supreme Court has
never resolved this broader free association claim
based on compelled bar membership.
Nor have we. In Morrow, the “plaintiffs complain[ed] that by virtue of their mandatory State Bar
membership, they [we]re associated in the public eye
with viewpoints they d[id] not in fact hold . . . [which]
violate[d] their First Amendment rights to free association.” 188 F.3d at 1175 (“The issue is whether plaintiffs’ First Amendment rights are violated by their
compulsory membership in a state bar association that
conducts political activities beyond those for which
mandatory financial support is justified.”). This is, essentially, the same claim Plaintiffs raise here. Just
like the instant claim, the Morrow plaintiffs raised
the “much broader freedom of association claim” that
Keller and Lathrop left unresolved. See Morrow, 188
F.3d at 1177 (“Plaintiffs nevertheless contend that
language in Keller leaves open the question whether
membership alone may cause the public to identify
plaintiffs with State Bar positions in violation of plaintiffs’ First Amendment rights.”). Nevertheless, we did
not resolve that claim.
When we reached the Morrow plaintiffs’ association claim, we essentially reformulated it: “[h]ere,
plaintiffs do not allege that they are compelled to associate in any way with the California State Bar’s political activities.” Id. By reformulating the claim, Morrow
held that the claim before it was “no broader than that
in Lathrop,” and noted “[t]he claim reserved in Keller
was a broader claim of violation of associational rights

App. 25
than was at issue in either Lathrop or in this case.” Id.
Our avoidance of this broader free association claim
cannot preclude Plaintiffs’ efforts to resolve it here.
Accordingly, Plaintiffs raise an issue that neither
the Supreme Court nor we have ever addressed:
whether the First Amendment tolerates mandatory
membership itself—independent of compelled ﬁnancial support—in an integrated bar that engages in
nongermane political activities. In concluding that
precedent foreclosed this claim, the district court
erred.
2. Plaintiffs’ free association claim is viable.
The First Amendment protects the basic right to
freely associate for expressive purposes; correspondingly, “[t]he right to eschew association for expressive
purposes is likewise protected.” Janus, 138 S. Ct. at
2463 (citing Roberts v. U.S. Jaycees, 468 U.S. 609, 623
(1984)). Freedom from compelled association protects
two inverse yet equally important interests. First, it
shields individuals from being forced to “confess by
word or act their faith” in a prescriptive orthodoxy or
“matters of opinion” they do not share. W. Va. Bd. of
Educ. v. Barnette, 319 U.S. 624, 642 (1943). Second, because “[e]ffective advocacy of both public and private
points of view, particularly controversial ones, is undeniably enhanced by group association,” NAACP v. Ala.
ex rel. Patterson, 357 U.S. 449, 460 (1958), freedom from
compelled association checks the power of “ofﬁcial[s],
high or petty, [to] prescribe what [opinions] shall be

App. 26
orthodox.” Barnette, 319 U.S. at 642. In short, like the
“freedom of belief,” freedom from compelled association “is no incidental or secondary aspect of the First
Amendment’s protections.” Abood, 431 U.S. at 235.
Plaintiffs’ freedom of association claim based on
the April 2018 Bulletin statements is viable. Because
the district court erred in dismissing this claim as foreclosed by our precedent, we reverse and remand.
On remand, there are a number of complicated
issues that the district court will need to address.
To begin, the district court will need to determine
whether Janus supplies the appropriate standard for
Plaintiffs’ free association claim and, if so, whether
OSB can satisfy its “exacting scrutiny standard.” Janus,
138 S. Ct. at 2477; see also, e.g., Fleck v. Wetch, 139
S. Ct. 590 (2018) (remanding a mandatory bar membership case for further consideration in light of Janus).
Given that we have never addressed such a broad free
association claim, the district court will also likely
need to determine whether Keller’s instructions with
regards to germaneness and procedurally adequate
safeguards are even relevant to the free association inquiry. To avoid issuing an advisory opinion, we defer
consideration of these issues at this stage of the case.
See Ball v. Rodgers, 492 F.3d 1094, 1119 (9th Cir. 2007)
(declining to address an issue “at this time” until after
the district court has an opportunity to review on remand in light of the court’s instructions related to separate issues).

App. 27
C. Sovereign Immunity
As set forth above, the district court adopted the
magistrate’s recommendation, in which the magistrate
determined that OSB is “an arm of the state entitled
to Eleventh Amendment Immunity.” Although the
magistrate cited several district court decisions and
unpublished Ninth Circuit dispositions7 that have alluded to this conclusion, this is a matter of ﬁrst impression before this court. The Eleventh Amendment bars,
with a few exceptions (see, e.g., Ex parte Young, 209 U.S.
123 (1908)), federal suits against unconsenting states,
their agencies, and their ofﬁcers “regardless of the nature of the relief sought.” Pennhurst State Sch. & Hosp.
v. Halderman, 465 U.S. 89, 100 (1984). “[N]ot all statecreated or state-managed entities are immune from
suit in federal court . . . . an entity may be organized or
managed in such a way that it does not qualify as an
arm of the state entitled to sovereign immunity.” Durning v. Citibank, N.A., 950 F.2d 1419, 1423 (9th Cir.
1991).
In State ex rel. Frohnmayer v. Oregon State Bar,
the Oregon Supreme Court held that OSB is a state
agency as deﬁned by its public records law. 767 P.2d
893, 895 (Or. 1989); see also OR. REV. STAT. § 192.311(6)
(“State Agency’ means any state ofﬁcer, department,
board, commission or court created by the Constitution
7

Of note, the district court cited to our unpublished disposition in Eardley v. Garst, 232 F.3d 894 (9th Cir. 2000). Our circuit
rules prohibit citations to unpublished dispositions issued prior
to January 1, 2007 except in limited circumstances, none of which
are present here. See 9th Cir. R. 36.

App. 28
or statutes of this state. . . .”). And we acknowledge
that the Oregon Supreme Court “is the ﬁnal authority
on the ‘governmental’ status of the [Bar] for purposes
of state law. But its determination . . . is not binding on
[federal courts] when . . . [deciding] a federal question.”
Keller, 496 U.S. at 11. We think that Frohnmayer has
answered, deﬁnitively, an important question: Is the
Oregon State Bar a state actor? The Oregon Supreme
Court has said “Yes,” and that means that OSB is
bound by those provisions of the U.S. Constitution that
bind state actors, such as the First Amendment, and
the Due Process and Equal Protection Clauses of the
Fourteenth Amendment. See, e.g., Burton v. Wilmington Parking Auth., 365 U.S. 715, 717 (1961). Finding
that an entity is the “state” for purposes of the First
Amendment or the Due Process and Equal Protection
Clauses, however, is not the same as concluding that
the entity is the “state” for purposes of the Eleventh
Amendment. See, e.g., Monell v. N.Y.C. Dep’t of Soc.
Servs., 436 U.S. 658, 690 n.54 (1978) (explaining there
is no “basis for concluding that the Eleventh Amendment is a bar to municipal liability” in § 1983 suits).
We recently discussed the different tests for state action and, as we will see, they are quite different from
our consideration of factors required for sovereign immunity. See Pasadena Republican Club v. W. Just. Ctr.,
___ F.3d ___, 2021 WL 235775, at *4 (9th Cir. Jan. 25,
2021) (listing various tests for state action). Accordingly, Frohnmayer does not answer the question before
us: Whether OSB is an arm of the state entitled to immunity under the Eleventh Amendment.

App. 29
To determine whether OSB, which is “an instrumentality of the . . . government of the State of Oregon,” OR. REV. STAT. § 9.010(2), is an arm of the state
entitled to immunity, we apply the Mitchell framework. See Mitchell v. L.A. Cmty. Coll. Dist., 861 F.2d
198, 201 (9th Cir. 1988). The Mitchell factors are as follows:
[1] whether a money judgment would be satisfied out of state funds, [2] whether the entity performs central governmental functions,
[3] whether the entity may sue or be sued,
[4] whether the entity has the power to take
property in its own name or only the name of
the state, and [5] the corporate status of the
entity. To determine these factors, the court
looks to the way state law treats the entity.
Id. (citation omitted). OSB “bear[s] the burden of proving the facts that establish its immunity under the
Eleventh Amendment.” ITSI TV Prods., Inc. v. Agric.
Ass’ns, 3 F.3d 1289, 1292 (9th Cir. 1993). We conclude
that, on the whole, the factors weigh against ﬁnding
OSB an “arm of the state” entitled to immunity.
1. Vulnerability of the State’s treasury
The first factor—whether a money judgment
would be satisﬁed out of state funds—weighs strongly
against immunity because Oregon law clearly answers
this question in the negative. OR. REV. STAT. § 9.010(6)
(“No obligation of any kind incurred or created under
this section shall be, or be considered, an indebtedness
or obligation of the State of Oregon.”).

App. 30
In this circuit, “the source from which the sums
sought by the plaintiff must come is the most important single factor in determining whether the Eleventh Amendment bars federal jurisdiction.” Durning,
950 F.2d at 1424 (citing Rutledge v. Ariz. Bd. of Regents, 660 F.2d 1345, 1349 (9th Cir. 1981); Ronwin v.
Shapiro, 657 F.2d 1071, 1073 (9th Cir. 1981); Jackson
v. Hayakawa, 682 F.2d 1344, 1350 (9th Cir. 1982)). Unlike the district court, we are not inclined to discount
the importance of this factor.8 Although it is true that
“[t]he Eleventh Amendment does not exist solely . . . to
prevent federal-court judgments that must be paid out
of a State’s treasury,” Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 58 (1996) (cleaned up), “the vulnerability
of the State’s purse [i]s the most salient factor in Eleventh Amendment determinations.” Hess v. Port Auth.
Trans-Hudson Corp., 513 U.S. 30, 48 (1994). Indeed, as
the Supreme Court acknowledged in Hess, “the vast
majority of Circuits . . . have generally accorded this
factor dispositive weight.” 513 U.S. at 49 (internal quotation marks omitted). We certainly have, see Durning,
950 F.2d at 1424 (citing cases).
Nor are we persuaded by the district court’s observation that, “[d]espite the fact the Bar alone is responsible for any money damages it may incur. . . . [a]ny
money judgment would come from the Bar’s collection
8

The district court suggested that this factor carries less
weight in cases for primarily equitable relief. But even assuming
such a distinction bears on the weight of this factor, it has little
effect here as both complaints seek the return of OSB membership fees Plaintiffs have paid during the statute of limitations period.

App. 31
of fees that is made possible because the State authorized the Bar to collect those fees.” Rather, we find
OSB’s collection of dues weighs against immunity, for
like the bar in Keller, OSB’s “principal funding comes,
not from appropriations made to it by the legislature,
but from dues levied on its members by the board of
governors.” 496 U.S. at 11.9
In short, Oregon law expressly disavows State ﬁnancial responsibility for OSB, which is funded by
membership fees. Therefore, the ﬁrst and most important Mitchell factor weighs strongly against immunity.
2. Central government functions
Mitchell’s second factor, “whether the entity performs central governmental functions,” is a closer call,
but we conclude that it weighs slightly against immunity. Mitchell, 861 F.2d at 201. To be sure, OSB, “an
instrumentality of [Oregon’s] Judicial Department,”
performs important government functions. OR. REV.
STAT. § 9.010(2). The district court detailed how the
Bar, subject to the review and direction of the Oregon
Supreme Court, manages bar examinations and attorney admissions, discipline, resignations, and reinstatements; and how the Oregon Supreme Court approves
9

The district court further opined, in a footnote, that if
Plaintiffs succeeded in eliminating mandatory membership fees,
the regulatory costs to the State would correspondingly increase.
These concerns, however well-intentioned, exceed the proper
scope of this ﬁrst factor’s inquiry: Whether a money judgment
would be satisﬁed out of state funds.

App. 32
changes to some OSB bylaws, adopts rules of professional conduct, reviews OSB’s annual ﬁnancials, and
approves its budget for certain activities.
We agree that OSB “undoubtedly performs important and valuable services for the State by way of
governance of the profession.” Keller, 496 U.S. at 11.
But like the integrated bar in Keller, “those services
are essentially advisory in nature.” Id. Integrated bars
are “a good deal different from most other entities that
would be regarded in common parlance as governmental agencies.” Id. (internal quotation marks omitted).
OSB “was created, not to participate in the general
government of the State, but to provide specialized professional advice to those with the ultimate responsibility of governing the legal profession.” Id. at 13. And
although Keller never speciﬁcally addressed sovereign
immunity, its analysis is pertinent and analogous to
the immunity question here. Keller identiﬁed (after a
lengthy discussion) constitutionally signiﬁcant differences between an integrated bar and “traditional government agencies and ofﬁcials.” Id. On that basis, the
Supreme Court rejected the argument that “the bar is
considered a governmental agency” that is “exempted
. . . from any constitutional constraints on the use of its
dues.” Id. at 10. Indeed, this was the principal basis on
which the Supreme Court reversed the California Supreme Court in Keller. Id. at 11–13.
Moreover, the second Mitchell factor inquiry must
be guided by “[t]he treatment of the entity under state
law.” Durning, 950 F.2d at 1426. The Gruber Plaintiffs
point out that under Oregon law, the Oregon Supreme

App. 33
Court—not OSB—makes ﬁnal decisions on admitting
attorneys, disciplining attorneys, and adopting rules of
professional conduct. These same considerations convinced the Supreme Court in Keller that the California
bar was not “the typical government ofﬁcial or agency,”
but rather a professional association that provided recommendations to the ultimate regulator of the legal
profession. 496 U.S. at 11–12 (reversing the California
Supreme Court’s conclusion to the contrary). The Oregon Supreme Court exerts the same direct, regulatory
control over Oregon attorneys. See Ramstead v. Morgan, 347 P.2d 594, 601 (Or. 1959) (“No area of judicial
power is more clearly marked off . . . than the courts’
power to regulate the conduct of the attorneys who
serve under it.”). Given OSB’s similarity to the integrated bar in Keller, we ﬁnd that the second Mitchell
factor weighs slightly against immunity.10 We note that
even if we were inclined to discount Keller—which we
cannot—and view OSB’s functions as central government functions, the second Mitchell factor is, at most,
a wash for OSB because the remaining four factors
weigh against immunity.

10

Our pre-Mitchell decisions in O’Connor v. State of Nevada,
686 F.2d 749, 750 (9th Cir. 1982) and Ginter v. State Bar of Nevada 625 F.2d 829, 830 (9th Cir. 1980) do not require a contrary
result. Neither opinion offers an explanation as to why the Nevada state bar is an arm of the state. More importantly, our present inquiry concerns Oregon’s state bar—not Nevada’s.

App. 34
3. Power to sue or be sued
Oregon law unequivocally imparts to OSB the
power to sue and be sued. OR. REV. STAT. § 9.010(5).
This factor thus militates against immunity. The district court nevertheless reasoned to the contrary because Oregon law elsewhere provides civil immunity
to the Bar and its ofﬁcials in the performance of their
duties related to admissions, licensing, reinstatements,
disciplinary proceedings, and client security fund
claims. OR. REV. STAT. §§ 9.537(2), 9.657. We are not
persuaded that limited grants of immunity for speciﬁc
functions cancel out the clear statutory grant of the
power to sue or be sued. In any event, we have recognized that although this factor warrants “some consideration, [it] is entitled to less weight than the first
two factors.” Belanger v. Madera Uniﬁed Sch. Dist., 963
F.2d 248, 254 (9th Cir. 1992). As such, this factor
weighs slightly against immunity.
4. Power to take property in its own name
It is clear that OSB may “enter into contracts and
lease, acquire, hold, own, encumber, insure, sell, replace, deal in and with and dispose of real and personal
property.” OR. REV. STAT. § 9.010(5). This factor accordingly weighs against immunity.
5. Corporate status
“[OSB] is a public corporation and an instrumentality of . . . the State.” Id. § 9.010(2). But because the
Bar appoints its own leaders, amends most of its bylaws, and manages its internal affairs, OSB “is a

App. 35
corporate entity sufﬁciently independent from the
state.” Durning, 950 F.2d at 1428. Our decision in
Durning is illustrative here. There, the Wyoming Community Development Authority was “a body corporate
operating as a state instrumentality operated solely
for the public beneﬁt” and its board was government
appointed. Id. at 1427 (emphasis in original). Yet Durning concluded the ﬁfth Mitchell factor weighed against
immunity. Id. at 1428. We reach the same conclusion
here, for OSB is even more independent than the Authority in Durning. OSB’s Board of Governors, for instance, are not government appointed. OR. REV. STAT.
§ 9.025(1)(a). The Board appoints OSB’s CEO. Id.
§ 9.055. And OSB “has the authority to . . . regulat[e]
and manag[e] . . . [its own affairs].” Id. § 9.080(1).
***
In sum, three factors, including the ﬁrst and most
important, weigh against immunity and the other two
still lean slightly against immunity. The Mitchell factors thus compel the conclusion that OSB is not an
“arm of the state” entitled to immunity. We note that
even viewing two factors as neutral, OSB has not met
its burden to prove immunity.
IV.

CONCLUSION

In light of the foregoing, the district court is AFFIRMED IN PART, REVERSED IN PART, and
these cases are REMANDED for further proceedings
consistent with this opinion.

App. 36
VANDYKE, Circuit Judge, concurring in part and dissenting in part:
I agree with and concur in the entirety of the
panel’s opinion in these cases, except its resolution
of the Crowe Plaintiffs’ inadequate procedural safeguards claim based on Chicago Teachers Union v.
Hudson, 475 U.S. 292 (1986).
At ﬁrst blush, it’s not obvious to me that the Bar’s
existing after-the-fact safeguards, which no one disputes fail to comply with the Supreme Court’s direction in Hudson, adequately “prevent[ ] compulsory
subsidization of ideological activity by” objecting bar
members. Id. at 302 (quoting Abood v. Detroit Bd. of
Educ., 431 U.S. 209, 237 (1977)). As the panel’s opinion
correctly concludes, even though the Supreme Court
seems to have moved on from the Abood rationale upon
which its Keller decision relied, we must still follow
Keller and thus reject Plaintiffs’ free speech claims in
these cases. But I don’t think that requires us to go further and ignore that the Supreme Court has now concluded even Hudson’s minimal safeguards are not
enough in other contexts. See Janus v. Am. Fed’n of
State, Cnty., & Mun. Emps., Council 31, 138 S. Ct. 2448,
2482, 2486 (2018) (concluding that “the Hudson notice
in the present case and in others that have come before
us do not begin to permit” objectors to protect their
First Amendment rights, and overruling Abood).
Given these developments in the law, it is hard
for me to see how something less than Hudson’s safeguards could sufﬁce in the context of compulsory bar

App. 37
membership dues. Keller said that “an integrated bar
could certainly meet its Abood obligation by adopting
the sort of procedures described in Hudson,” Keller v.
State Bar of California, 496 U.S. 1, 17 (1990), which of
course we are bound by until the Supreme Court tells
us otherwise. See Agostini v. Felton, 521 U.S. 203, 237
(1997). But Keller never addressed what procedures
less protective than those required by Hudson would
sufﬁce. Even assuming some type(s) of less protective
procedures might have been defensible before Janus
overruled Abood, it doesn’t strike me as very defensible
now that the Supreme Court has told us Hudson’s procedures are no longer sufﬁcient in other contexts. Following Keller and Janus and Agostini, it may be that
Hudson’s requirements are now both a ﬂoor and a ceiling for integrated bars—at least until the Supreme
Court gives us more guidance.
Ultimately, however, I would address the Crowe
Plaintiffs’ inadequate safeguards claim by not doing so
in this appeal. We are remanding Plaintiffs’ free association claim, and if on remand they prevail on that
claim, the Bar will presumably need to change its bylaws, and maybe its entire structure. Because such alterations would likely change the procedures the
Crowe Plaintiffs currently challenge, I don’t think it is
necessary that we review those procedures at this
stage of the case. To avoid issuing an advisory opinion,
I would defer consideration of this issue. See Ball v.
Rodgers, 492 F.3d 1094, 1119 (9th Cir. 2007) (declining
to address a claim “at this time,” and waiting until after the district court on remand reviews the claim

App. 38
anew in light of our court’s instructions on separate
issues that could affect that claim) Accordingly, I respectfully dissent on this singular claim.

App. 39
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DIANE L. GRUBER, et al.,

Case No. 3:18-cv-1591-JR

Plaintiffs,
v.
OREGON STATE BAR, et al.,
Defendants.
DANIEL Z. CROWE, et al., Case No. 3:18-cv-2139-JR
Plaintiffs,
v.
OREGON STATE BAR, et al.,
Defendants.
ORDER
(Filed May 24, 2019)
Michael H. Simon, District Judge.
On April 1, 2019, United States Magistrate Judge
Jolie A. Russo issued a single Findings and Recommendation in these two related cases. Judge Russo recommended that the Court grant Defendants’ motions to
dismiss in each case.
Under the Federal Magistrates Act (“Act”), the
Court may “accept, reject, or modify, in whole or in part,
the ﬁndings or recommendations made by the magistrate.” 28 U.S.C. § 636(b)(1). If a party ﬁles objections

App. 40
to a magistrate judge’s ﬁndings and recommendations,
“the court shall make a de novo determination of those
portions of the report or speciﬁed proposed ﬁndings or
recommendations to which objection is made.” Id.; Fed.
R. Civ. P. 72(b)(3).
For those portions of a magistrate judge’s ﬁndings
and recommendations to which neither party has objected, the Act does not prescribe any standard of review. See Thomas v. Arn, 474 U.S. 140, 152 (1985)
(“There is no indication that Congress, in enacting [the
Act], intended to require a district judge to review a
magistrate’s report to which no objections are ﬁled.”);
United States. v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th
Cir. 2003) (en banc) (holding that the court must review de novo magistrate judge’s ﬁndings and recommendations if objection is made, “but not otherwise”).
Although in the absence of objections no review is required, the Magistrates Act “does not preclude further
review by the district judge[ ] sua sponte . . . under a de
novo or any other standard.” Thomas, 474 U.S. at 154.
Indeed, the Advisory Committee Notes to Fed. R. Civ.
P. 72(b) recommend that “[w]hen no timely objection is
ﬁled,” the Court review the magistrate judge’s recommendations for “clear error on the face of the record.”
Neither party objected in Case No. 3:18-cv-01591JR. In Case No. 3:18-cv-02139-JR, however, Plaintiffs
timely ﬁled an objection. In that objection, Plaintiffs
argue that the Oregon State Bar is not entitled to Eleventh Amendment immunity and that Plaintiffs have
stated cognizable claims for violations of their rights
under the First and Fourteenth Amendments. The

App. 41
Court has reviewed de novo those portions of Judge
Russo’s Findings and Recommendation to which Plaintiffs have objected, as well as Defendants’ response.
The Court agrees with Judge Russo that under the factors set forth in Mitchell v. Los Angeles Cmty. Coll.
Dist., 861 (9th Cir. 1998), the Oregon State Bar is immune from suit under the Eleventh Amendment. The
Court also agrees with Judge Russo that Plaintiffs
have failed to raise any plausible constitutional violations. The Court therefore ADOPTS those portions of
the Findings and Recommendation. Further, for those
portions of Judge Russo’s Findings and Recommendation to which neither party has objected, this Court follows the recommendation of the Advisory Committee
and reviews those matters for clear error on the face of
the record. No such error is apparent.
The Court adopts Judge Russo’s Findings and Recommendation in Case No. 3:18-cv-1591-JR (ECF 44)
and Case No. 3:18-cv-2139-JR (ECF 29) and grants Defendants’ motions to dismiss in each case. The Court
denies Plaintiffs’ motion for partial summary judgment (ECF 18) in Case No. 3:18-cv- 1591-JR.
IT IS SO ORDERED.
DATED this 24th day of May, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

App. 42
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DIANE L. GRUBER
and MARK RUNNELS,

Case No. 3:18-cv-1591-JR
JUDGMENT

Plaintiffs,
v.
OREGON STATE BAR,
a public corporation.
CHRISTINE CONSTANTINO,
President of the Oregon
State Bar, HELEN
HIERSCHBIEL,
Executive Ofﬁcer of
the Oregon State Bar,
Defendants.
Michael H. Simon, District Judge.
Based on the Court’s Order,
IT IS ADJUDGED that this case is DISMISSED.
DATED this 24th day of May, 2019.
/s/ Michael H. Simon
Michael H. Simon
United States District Judge

App. 43
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
DIANE L. GRUBER
and MARK RUNNELS,
Plaintiffs,

3:18-cv-1591-JR
FINDINGS &
RECOMMENDATION

v.
OREGON STATE BAR,
a public corporation;
CHRISTINE CONSTANTINO,
President of the Oregon State
Bar, HELEN HIERSCHBIEL,
Executive Ofﬁcer of
the Oregon State Bar,
Defendants.
DANIEL Z CROWE;
3:18-cv-2139-JR
LAWRENCE K. PETERSON;
FINDINGS &
OREGON CIVIL LIBERTIES RECOMMENDATION
ATTORNEYS, an Oregon
Nonprofit Corporation,
Plaintiffs,
v.
OREGON STATE BAR, a
public corporation; OREGON
STATE BAR BOARD OF
GOVERNORS; VANESSA
NORDYKE, President of
the Oregon State Bar Board
of Governors; CHRISTINE
COSTANTINO, President-elect

App. 44
of the Oregon State Bar Board
of Governors; HELEN
HIERSCHBIEL, Chief
Executive Ofﬁcer of the
Oregon State Bar, KEITH
PALEVSKY, Director of
Finance and Operations
of the Oregon State Bar;
AMBER HOLLISTER,
General Counsel for
the Oregon State Bar,
Defendants.
(Filed Apr. 1, 2019)
RUSSO, Magistrate Judge:
In these two related cases, members of the Oregon
State Bar (Bar) challenge the mandatory nature of the
Bar’s membership and compulsory fee structure. Both
cases name the Bar as well as the Bar’s president and
chief executive ofﬁcer as defendants. Case number 182139-JR, also names the Oregon State Bar Board of
Governors, the Bar’s director of ﬁnance and operations,
and the Bar’s general counsel as defendants.
In case number 18-1591-JR, plaintiffs Bar members Diane Gruber and Mark Runnels seek a declaration that compulsory Bar membership dues violate the
First and Fourteenth Amendments of the United
States Constitution. Alternatively, these plaintiffs seek
damages to the extent the Bar failed to reduce the
dues which plaintiffs are compelled to pay for the

App. 45
Bar’s political or ideological activities in violation of
the First and Fourteenth Amendments.
In case number 18-2139-JR, plaintiffs Bar members Daniel Crowe, Lawrence Peterson, and Oregon
Civil Liberties Attorneys similarly assert claims that
the Bar violates their constitutional rights by requiring membership in the Bar to practice law, using their
membership fees for political speech without consent,
and failing to implement safeguards to prevent the Bar
from engaging in political advocacy.
Defendants move to dismiss the respective actions. Plaintiffs Gruber and Runnels move for partial
summary judgment in case number 18-1591-JR. The
Oregon Attorney General submitted an amicus curiae
memorandum in support of the Bar’s position that the
cases should be dismissed. The court heard argument
on March 13, 2019. The motions to dismiss should be
granted and the motion for partial summary judgment
should be denied.
ALLEGATIONS
A. Gruber v. Oregon State Bar (18-1591-JR)
Plaintiffs allege they are compelled to pay various
fees, assessments, and dues as a condition of engaging
in the State regulated legal profession. First Amended
Complaint (doc. 39) at ¶ 5. Plaintiffs further allege the
Bar engages in political and ideological activities with
which they do not agree such as issuing the following

App. 46
statement in the April 2018 Oregon State Bar Bulletin:
Statement on White Nationalism
and Normalization of Violence
As the United States continues to grapple
with a resurgence of white nationalism and
the normalization of violence and racism, the
Oregon State Bar remains steadfastly committed to the vision of a justice system that
operates without discrimination and is fully
accessible to all Oregonians. As we pursue
that vision during trines of upheaval, it is
particularly important to understand current
events through the lens of our complex and often troubled history. The legacy of that history
was seen last year in the streets of Charlottesville, and in the attacks on Portland’s
MAX train. We unequivocally condemn these
acts of violence.
We equally condemn the proliferation of
speech that incites such violence. Even as we
celebrate the great beneﬁcial power of our
First Amendment, as lawyers we also know it
is not limitless. A systemic failure to address
speech that incites violence emboldens those
who seek to do harm, and continues to hold
historically oppressed communities in fear
and marginalization.
As a uniﬁed bar, we are mindful of the breadth
of perspectives encompassed in our membership. As such, our work will continue to focus
speciﬁcally on those issues that are directly
within our mission, including the promotion

App. 47
of access to justice, the rule of law, and a
healthy and functional judicial system that
equitably serves everyone. The current climate of violence, extremism and exclusion
gravely threatens all of the above. As lawyers,
we administer the keys to the courtroom, and
assist our clients in opening doors to justice.
As stewards of the justice system, it is up to
us to safeguard the rule of law and to ensure
its fair and equitable administration. We
simply cannot lay claim to a healthy justice
system if whole segments of our society are
fearful of the very laws and institutions that
exist to protect them.
In today’s troubling climate, the Oregon State
Bar remains committed to equity and justice
for all, and to vigorously promoting the law as
the foundation of a just democracy. The courageous work done by specialty bars throughout
the state is vital to our efforts and we continue
to be both inspired and strengthened by those
partnerships. We not only refuse to become accustomed to this climate, we are intent on
standing in support and solidarity with those
historically marginalized, underrepresented
and vulnerable communities who feel voiceless within the Oregon legal system.
Id at ¶ 6 and p. 8.
The Bar also published in the same issue the following statement by the Oregon Specialty Bar Associations:

App. 48
Joint Statement of the Oregon Specialty
Bar Associations Supporting the Oregon
State Bars Statement on White
Nationalism and Normalization of Violence
The Oregon Asian Paciﬁc American Bar Association, the Oregon Women Lawyers, the Oregon Filipino American Lawyers Association,
OGALLA-The LGBT Bar Association of Oregon, the Oregon Chapter of the National Bar
Association, the Oregon Minority Lawyers
Association, and the Oregon Hispanic Bar
Association support the Oregon State Bar’s
Statement on White Nationalism and Normalization of Violence and its commitment to
the vision of a justice system that operates
without discrimination and is fully accessible
to all Oregonians.
Through the recent events from the Portland
MAX train attacks to Charlottesville, we have
seen an emboldened white nationalist movement gain momentum in the United States
and violence based on racism has become normalized. President Donald Trump, as the
leader of our nation, has himself catered to
this white nationalist movement, allowing it
to make up the base of his support and providing it a false sense of legitimacy. He has allowed this dangerous movement of racism to
gain momentum, and we believe this is allowing these extremist ideas to be held up as part
of the mainstream, when they are not. For example, President Trump has espoused racist
comments, referring to Haiti and African
countries as “shithole countries” and claiming

App. 49
that the United States should have more
immigrants from countries like Norway. He
signed an executive order that halted all refugee admissions and barred people from seven
Muslim-majority countries, called Puerto
Ricans who criticized his administration’s
response to Hurricane Maria “politically
motivated ingrates,” said that the white supremacists marching in Charlottesville, North
Carolina in August of 2017 were “very ﬁne
people,” and called into question a federal
judge, referring to the Indiana-born judge as
Mexican,” when the race of his parents had
nothing to do with the judge’s decision. We are
now seeing the white nationalist movement
grow in our state and our country under this
form of leadership.
As attorneys who lead diverse bar associations throughout Oregon, we condemn the violence that has occurred as a result of white
nationalism and white supremacy. Although
we recognize the importance of the First
Amendment of the United States Constitution and the protections it provides, we condemn speech that incites violence, such as
the violence that occurred in Charlottesville.
President Trump needs to unequivocally condemn racist and white nationalist groups.
With his continued failure to do so, we must
step in and speak up.
As attorneys licensed to practice law in Oregon, we took an oath to “support the Constitution and the laws of the United States and of
the State of Oregon.” To that end, we have a

App. 50
duty as attorneys to speak up against injustice, violence, and when state and federal laws
are violated in the name of white supremacy
or white nationalism. We must use all our resources, including legal resources, to protect
the rights and safety of everyone. We applaud
the Oregon State Bar’s commitment to equity
and justice by taking a strong stand against
white nationalism. Our bar associations pledge
to work with the Oregon State Bar and to
speak out against white nationalism and the
normalization of racism and violence.
Plaintiffs assert collection of compulsory fees, although authorized by Oregon statute, violates their
rights under the First and Fourteenth Amendments to
free speech, petition, and association. Id. at ¶¶ 16-18.
In the alternative, plaintiffs assert defendants violated
their First and Fourteenth Amendment rights by failing to reduce their dues for political or ideological activities of the Bar.
B. Crowe v. Oregon State Bar (18-2139-JR)
Plaintiffs Crowe, Peterson, and the Oregon Civil
Liberties Attorneys allege the State of Oregon requires
attorneys to join and pay fees to the Bar association in
order to practice law in the State. Complaint (doc. 1) at
¶2. Plaintiffs further allege a mandatory bar association such as Oregon’s must implement safeguards to
ensure members’ dues are used only for the narrow
purpose of improving the quality of legal services
through the regulation of attorneys and not for

App. 51
political advocacy. Id. at ¶ 3. Plaintiffs further assert
mandatory bars must fund their political advocacy
with money paid by individuals who afﬁrmatively consent to having their money used for that purpose. Id.
at ¶ 4.
Plaintiffs allege the Bar uses mandatory member
fees to fund political speech without ﬁrst obtaining
members’ consent. Id. at ¶ 5. Plaintiffs assert the Bar
does not publish information regarding the method for
determining whether a given allocation of funds was
used for purposes germane to “improving the quality of
legal services and regulating attorneys.” Id. at ¶34.
Moreover, plaintiffs assert the Bar uses mandatory
member fees to engage in legislative and policy advocacy which are not germane to the Bar’s purpose. Id. at
¶¶ 35-40.
Plaintiffs speciﬁcally object to the Bar’s April 2018
statement as noted above. Plaintiffs assert that statement constitutes political speech and they do not agree
with the “explicit and implicit criticism of . . . President
Trump” resulting from the inclusion of the Speciality
Bars’ subsequent statement. Id. at ¶¶ 41-44, 47. Plaintiffs assert they had no opportunity in advance to prevent their mandatory dues from being used to publish
the April 2018 Bar Bulletin and if asked they would
have declined to pay for publication of the statement.
Id. at ¶ 45, 48. Plaintiffs Crowe and Peterson contacted
the Bar’s chief executive and objected to the use of
their fees for that publication and received refunds in
the amount of $1.15 each. Id. at ¶¶ 49-51. Plaintiffs assert other Bar members similarly received refunds but

App. 52
the Bar has not informed plaintiffs how it calculated
the amounts of these partial refunds. Id. at ¶¶ 52-53.
Plaintiffs also allege the mandatory nature of the
Oregon State Bar violates their freedom of association
and asserts mandatory membership is not necessary
to ensure quality legal services or to regulate attorneys. Id. at ¶ 7. Plaintiffs also allege the Bar’s mandatory fees impinge on their right to free speech because
the Bar fails to provide:
(a) notice to members, including an adequate
explanation of the basis for the dues and
calculations of all non-chargeable activities,
veriﬁed by an independent auditor; (b) a reasonably prompt decision by an impartial decision maker if a member objects to the way his
or her mandatory dues are being spent; and
(c) an escrow for the amounts reasonably in
dispute while such objections are pending.
Id. at ¶ 62, 64. Plaintiffs further allege that refunding
fees after an objection is made is insufﬁcient. Id. at
¶ 65.
Finally, plaintiffs allege violation of their First and
Fourteenth Amendment rights to free speech because
the Bar has not implemented an “opt-in” system for
members to pay for non-germane speech. Id. at ¶¶ 7378. In addition, plaintiffs allege violation of their First
and Fourteenth Amendment rights to associate due to
compelled membership in the Bar. Id. at ¶¶ 80-88.

App. 53
DISCUSSION
Plaintiffs Gruber and Runnels ﬁled their complaint in the 18-1591-JR case on August 29, 2018. Defendants moved to dismiss on October 22, 2018.
Plaintiffs responded to the motion and ﬁled their own
motion for summary judgment on November 5, 2018.
Before the parties completed brieﬁng on the motions,
on December 13, 2018, plaintiffs Crowe, Peterson, and
the Oregon Civil Liberties Attorneys ﬁled their complaint in the 18-2139-JR case Plaintiffs Gruber and
Runnels then ﬁled an amended complaint in the 181591-JR case and on January 9, 2018, defendants
moved to dismiss in both actions. Accordingly, defendants ﬁrst motion to dismiss (doc. 14) in 18-1591-JR
case should be denied as moot.1 The motions to dismiss
in both cases involve the same issues and resolution of
one motion necessarily resolves the other.
A. The Oregon State Bar
In 1935, the Oregon Legislature enacted the State
Bar Act, Or. Rev. Stat. §§ 9.005-9.757. The Bar is a public corporation and an instrumentality of the Judicial
Department of the State of Oregon. Or. Rev. Stat.
1

Plaintiffs in the 18-1591-JR case did not respond to the second motion to dismiss. However, their First Amended Complaint
only adds two defendants: the president and the chief executive
ofﬁcer of the Bar, but otherwise remains the same. The second
motion to dismiss is made on the same grounds as the ﬁrst. While
the motion is technically unopposed, because the analysis is the
same with respect to the motion to dismiss in the related 18-2139JR case, the court applies that analysis in both cases for purposes
of judicial economy.

App. 54
§9.010(2). To practice law in the State of Oregon, a lawyer must join the Bar and pay an annual membership
fee. Or. Rev. Stat. §§ 9.160(1); 9.191; 9.200. The State of
Oregon is not responsible for the debts of the Bar and
the ﬁnancial needs of the Bar are met through the collection of membership fees. Or. Rev. Stat. §§ 9.010(6);
9.191(3).
The Bar’s Board of Governors is required to advance the science of jurisprudence and the improvement of the administration of justice. Or. Rev. Stat.
§ 9.080(1).2 To accomplish this mission, the Bar administers exams for admission to practice, examines
a member’s character and ﬁtness, formulates and enforces rules of conduct, and requires continuing
education and training of its members. Or. Rev. Stat.
§§ 9.210; 9.490; 9.114. In addition, the Bar provides the
public with general legal information and seeks to increase pro bono legal services. See, e.g., https://www.
osbar.org/public/; https://www.osbar.org/lsp; https://www.
osbar.org/probono/.
2

In addition, the Bar’s mission is “to serve justice by promoting respect for the rule of law, by improving the quality of legal
services, and by increasing access to justice. https://www.osbar.
org/docs/resources/OSBMissionStatement.pdf. The court takes
judicial notice of the Bar’s bylaws, Mission Statement, and other
ofﬁcial statements and documents for purposes of the motions to
dismiss. See Rhodes v. Sutter Health, 2012 WL 662462, at *3
(E.D. Cal. Feb. 28, 2012) (The court took judicial notice of a foundations bylaws because judicial notice of facts not subject to reasonable dispute is appropriate where they are either generally
known within the territorial jurisdiction of the trial court, or are
capable of accurate and ready determination by resort to sources
whose accuracy cannot reasonably be questioned.).

App. 55
As part of its mission, the Bar publishes a monthly
Bar Bulletin. The Bar’s communications within the
Bulletin:
should be germane to the law, lawyers, the
practice of law, the courts and the judicial system, legal education and the Bar in its role as
a mandatory membership organization. Communications, other than permitted advertisements, should advance public understanding
of the law, legal ethics and the professionalism
and collegiality of the bench and Bar.
Oregon State Bar Bylaws, Art. 11, Sec. 1 (http://www.
osbar.org/docs/rulesregs/bylaws.pdf ) (Bylaws). In addition:
Bar legislative or policy activities must be
reasonably related to any of the following
subjects: Regulating and disciplining lawyers; improving the functioning of the courts
including issues of judicial independence,
fairness, efficacy and efficiency; making legal
services available to society; regulating
lawyer trust accounts; the education, ethics,
competence, integrity and regulation of the
legal profession; providing law improvement
assistance to elected and appointed government officials; issues involving the structure
and organization of federal, state and local
courts in or affecting Oregon; issues involving the rules of practice, procedure and evidence in federal, state or local courts in or
affecting Oregon; or issues involving the duties and functions of judges and lawyers in

App. 56
federal, state and local courts in or affecting
Oregon.
Id. at 12.1.
Defendants assert the complaints should be dismissed for the following reasons: the Bar is immune
from suit under the Eleventh Amendment to the
United States Constitution; integrated bars are constitutional and may use mandatory fees for political
speech germane to regulating attorneys and improving
legal services; afﬁrmative consent is not necessary before a bar engages in speech germane to legal services;
the individual defendants are entitled to qualiﬁed immunity from claims for damages; and the Oregon State
Bar Board of Governors is not a legal entity capable of
being sued.
B. Eleventh Amendment Immunity
The Eleventh Amendment provides:
“The Judicial power of the United States shall
not be construed to extend to any suit in law
or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens or Subjects of any
Foreign State.”
The Amendment afﬁrms the fundamental principle of
sovereign immunity which limits the grant of judicial
authority in Article III of the Constitution. Pennhurst
State School and Hospital v. Halderman, 465 U.S. 89,
98 (1984). A State’s Eleventh Amendment protection

App. 57
from suit has been extended to suits brought by a
State’s own citizens, Hans v. Louisiana, 134 U.S. 1, 10
(1890), and suits invoking the federal question jurisdiction of Article III. Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 72-73 (1996).
A suit against a State agency is considered to be a
suit against the State, and is also barred by the Eleventh Amendment. Shaw v. California Dept. of Alcoholic
Beverage Control, 788 F.2d 600, 603 (9th Cir. 1986). In
addition, “[w]hen suit is commenced against state ofﬁcials, even if they are named and served as individuals,
the State itself will have a continuing interest in the
litigation whenever State policies or procedures are at
stake.” Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S.
261, 269 (1997).
Defendants assert the Bar is an arm of the State
and thus is immune from suit.
To determine whether a governmental agency
is an arm of the state, the following factors
must be examined: whether a money judgment would be satisﬁed out of state funds,
whether the entity performs central governmental functions, whether the entity may sue
or be sued, whether the entity has the power
to take property in its own name or only the
name of the state, and the corporate status of
the entity. . . . To determine these factors, the
court looks to the way state law treats the entity.
Mitchell v. Los Angeles Cmty. Coll. Dist., 861 F.2d 198,
201 (9th Cir. 1988).

App. 58
The judges of this court have repeatedly and consistently held that the Bar is immune from suit under
the Eleventh Amendment. See, e.g., Hartﬁeld v. Or.
State Bar, 2016 WL 9225978, at *1 (D.Or. Jan. 15,
2016), report and recommendation adopted, 2016 WL
9226386 (D.Or. Feb. 16, 2016), aff ’d, 671 F.App’x 456
(9th Cir. 2016); Coultas v. Payne, 2012 WL 6725845, at
*3 (D.Or. Nov. 27, 2012), report and recommendation
adopted, 2012 WL 6726247, at *1 (D Or. Dec. 27, 2012);
Weidner v. Albertazzi, 2006 WL 2987704, at *1 (D.Or.
Oct. 13, 2006); Erwin v. Oregon ex rel. Kitzhaber, 231
F.Supp.2d 1003, 1007 (D.Or. 2001), aff ’d, 43 F.App’x
122 (9th Cir. 2002)); see also Eardley v. Garst, 232 F.3d
894 (9th Cir. 2000) (claims against Oregon State Bar
appropriately dismissed under Eleventh Amendment
immunity). An analysis of the Mitchell factors again
demonstrates the Bar is immune from suit in this case.
1. The Mitchell Factors
a. State Funds at Risk
As noted above, the Bar is a public corporation and
an instrumentality of the Judicial Department of the
State of Oregon. Or. Rev. Stat. §9.010(2). However, under the ﬁrst Mitchell factor, a money judgment against
the Bar would not be satisﬁed out of State funds. Or.
Rev. Stat. § 9.010(6). Nonetheless, this factor is not necessarily critical in determining whether immunity applies in the cases at bar.3 The “Eleventh Amendment
3

Despite the Ninth Circuit has referring to this factor as
“most important,” cases so ﬁnding primarily involve claims for

App. 59
does not exist solely to ‘prevent federal court judgments that must be paid out of a State’s treasury.’ ”
Seminole Tribe of Fla, 517 U.S. at 58. As noted above,
the Eleventh Amendment not only bars suits at law,
but suits at equity as well and thus “the relief sought
by a plaintiff suing a State is irrelevant to the question
whether the suit is barred by the Eleventh Amendment.” Id. Here, plaintiffs primarily seek injunctive relief. Despite the fact the Bar alone is responsible for
any money damages it may incur, the Bar performs essential governmental functions including the collection of fees to perform those functions. Any money
judgment would come from the Bar’s collection of fees
that is made possible because the State authorized the

money damages whereas the cases at bar primarily involve requests for equitable relief. See e.g., Durning v. Citibank, N.A., 950
F.2d 1419, 1426 (9th Cir. 1991); see also Savage v. Glendale
Union High Sch., Dist. No. 205, Maricopa Cty., 343 F.3d 1036,
1039 (9th Cir. 2003) (seeking compensatory and punitive relief );
Hess v. Port Auth. Trans-Hudson Corp., 513 U.S. 30, 48-49 (1994)
(in action seeking recovery under Federal Employers’ Liability
Act, recognizing majority of circuit courts ﬁnd the vulnerability of
the State’s purse as the most salient factor in Eleventh Amendment determinations). The Seventh Circuit in a suit involving the
Wisconsin State Bar stated, “even without any impact on the
state’s treasury, the district court must consider whether the Bar
occupies the position of a public agency or ofﬁcial, necessarily forbidding any suit in federal court.” Crosetto v. State Bar of Wisconsin, 12 F.3d 1396, 1402 (7th Cir. 1993). The Seventh Circuit
later determined that the effect on the state treasury was the
least important factor. Thiel v. State Bar of Wisconsin, 94 F.3d
399, 401 (7th Cir. 1996), overruled on other grounds by Kingstad
v. State Bar of Wis., 622 F.3d 708 (7th Cir. 2010).

App. 60
Bar to collect those fees.4 Accordingly, the money judgment sought by the plaintiffs, which is, the return of
fees already paid, is not a dispositive element militating against a ﬁnding of immunity under the Mitchell
factors.
b. Central Government Functions
The Oregon Legislature, through the State Bar
Act, has delegated traditional functions of the judiciary
to the Bar. See, e.g., Ramstead v. Morgan, 219 Or. 383,
399, 347 P.2d 594, 601 (1959) (noting the delegation of
traditional function of the judiciary in disciplining the
members of the bar serving under it through the former Or. Rev. Stat. § 9.550). As noted above, the State
Bar Act broadly provides for the regulation of the practice of law in the State of Oregon.
The Bar regulates admission to the practice of
law as well as the conduct of practicing attorneys in
Oregon. See, e.g. Or. Rev. Stat. §§ 9.080; 9.114; 9.210;
9.490. The Oregon Supreme Court oversees the Bar’s
4

If the Bar were unable to collect mandatory fees, its ability
to regulate attorneys would be impacted. As discussed in the next
section, the Oregon Supreme Court would be left to carry out the
regulatory function which would certainly impact the State’s
funding. Thus, as a practical matter, plaintiffs’ success in these
actions will impact the State treasury. See Alaska Cargo Transp.,
Inc. v. Alaska R.R. Corp., 5 F.3d 378, 381, 382 (9th Cir. 1993)
(even though sued entity and not the State is liable for a judgment
against it, the entity’s ﬁnances are “in substantial respects . . .
dependent upon and controlled by the will of the governor and the
legislature,” and the State has a “strong interest in keeping [the
entity operational] and ﬁscally sound.”).

App. 61
regulatory activities, retaining original jurisdiction to
review decisions concerning admissions, reinstatement,
and attorney discipline. Or. Rev. Stat. § 9.536. The Supreme Court appoints the Bar’s presiding disciplinary
adjudicator, as well as members of the Bar’s Disciplinary Board, State Professional Responsibility Board,
Unlawful Practice of Law Committee, and the Board of
Bar Examiners. See Or. Rev. Stat. §§ 9.210, 9.532; B.R.
1.1, 2.3, 2.4, 12.1 (https://www.osbar.org/docs/rulesregs/
rulesofprocedure.pdf); Bylaws §§ 18.100, 28.1 (http://www.
osbar.org/docs/rulesregs/bylaws.pdf). The Supreme Court
approves any changes to the Bylaws that apply to admission to practice law in Oregon. See Or. Rev. Stat.
§ 9.542; Bylaws § 28.6. The Supreme Court also reviews all rules of procedure relating to the admission
to practice law, discipline, resignation, and reinstatement of Bar members, and reviews the eligibility of
candidates for the Board of Governors. Or. Rev. Stat.
§§ 9.005(7); 9.042. The Chief Justice reviews annual
statements of the Bar’s ﬁnancial position. Or. Rev. Stat.
§ 9.100. The Supreme Court also approves the Bar’s
budget for admissions, discipline, and continuing legal
education programs in conjunction with the budgets of
other Bar activities. Bylaws § 7.202.
The statutory structure of the State Bar Act and
various implementing regulations demonstrate that
the function of the Bar is to assume responsibilities
otherwise within the domain of the Oregon Supreme
Court. That statute further demonstrates that the Bar

App. 62
serves quintessential government functions.5 See, e.g.,
O’Connor v. State of Nev., 686 F.2d 749, 750 (9th Cir.
1982) (Nevada State bar is the investigative arm of the
Supreme Court of Nevada, charged with investigating
and disciplining the legal profession of the state, and
as such an agency, it too is immune from suit in federal
court under the Eleventh Amendment).
c. Sue or Be Sued
The third Mitchell factor, whether the purported
arm of the state may sue or be sued, militates somewhat against immunity. The Bar may sue or be sued.
Or. Rev. Stat. § 9.010(5). However, the State Bar Act
limits the ability to sue the Bar in certain respects. See
Or. Rev. Stat. § 9.537 (providing absolute immunity to
the Bar, Bar ofﬁcers, and other Bar entities from civil
liability in the performance of their duties relative to
proposed or pending admission, professional licensing
requirements, reinstatement, or disciplinary proceedings); Or. Rev. Stat. § 9.657 (providing immunity from
5

Plaintiffs assert the “advisory nature of the Bar’s relationship with the State Supreme Court undercuts a ﬁnding that the
Bar performs central government functions” citing Keller v. State
Bar of California, 496 U.S. 1, 11 (1990) (noting the functions of
the California State Bar are actually reserved by California law
to the State Supreme Court). The fact that decisions of the Bar
are reviewed by the Oregon Supreme Court does not make those
functions any less governmental in form. State administrative
agencies’ decisions are often subject to review without stripping
the agency of their governmental duties. Moreover, such argument neglects to consider the State Legislature’s choice to relieve
the Supreme Court of these functions which may otherwise impinge on its ability to perform its other duties.

App. 63
civil liability for the performance of duties relative to
proposed or pending client security fund claims). Thus,
this factor does not argue against immunity from suit
in federal court.
d. Power to Take Property in its Own Name
Pursuant to the fourth Mitchell factor, the court
considers whether the Bar has the power to take property in its own name or in the name of the State. The
Bar “may, in its own name, for the purpose of carrying into effect and promoting its objectives, enter into
contracts and lease, acquire, hold, own, encumber, insure, sell, replace, deal in and with and dispose of real
and personal property.” Or. Rev. Stat. § 9.010. As such,
this factor somewhat weighs against immunity. See
Beentjes v. Placer Cty. Air Pollution Control Dist., 397
F.3d 775, 784 (9th Cir. 2005) (California law authorizes
County Pollution Control District to “take by grant,
purchase, gift, devise, or lease, to hold, use, and enjoy,
and to lease or dispose of any real or personal property
within or without the district necessary to the full exercise of its powers” weighed in favor ﬁnding district
not an arm of the state). Nonetheless, the Bar’s power
to take property in its own name is in furtherance of
its objectives which are classiﬁed as governmental
functions to aid the Supreme Court in regulating attorneys. See Belanger v. Madera Uniﬁed Sch. Dist., 963
F.2d 248, 254 (9th Cir. 1992) (because beneﬁcial ownership of public schools’ property held in a district’s
own name enures to the State, this factor is entitled
to little weight in the overall balance). Moreover, the

App. 64
Bar’s ability to hold property in its own name is limited
in some respects. For instance, while the Bar may take
possession of abandoned client funds held in trust accounts, those funds belong to the State. Or. Rev. Stat.
§§ 98.386(2); 98.304. Accordingly, this factor also fails
to demonstrate lack of immunity.
e. Corporate Status
As to the ﬁfth Mitchell factor, “the Oregon State
Bar is a public corporation and an instrumentality of
the Judicial Department of the government of the
State of Oregon.” Or. Rev. Stat. 9.010. This again
demonstrates the central governmental role the Bar
plays in concert with the Oregon Supreme Court. Indeed, the Oregon Supreme Court has determined that
this language establishes the Bar is itself a State
agency. State ex rel. Frohnmayer v. Oregon State Bar,
307 Or. 304, 309, 767 P.2d 893, 895 (1989).
Despite the independent ﬁnancial status vested in
the Bar through the State Bar Act, the legislature intended it to perform central government functions in
concert with the Oregon Supreme Court and as such it
is an arm of the state entitled to Eleventh Amendment
Immunity.
However, the individual defendants, to the extent
plaintiffs seek prospective injunctive relief, do not enjoy similar immunity. See Coeur d’Alene Tribe of Idaho,
521 U.S. at 276-77 (“where prospective relief is sought
against individual state ofﬁcers in a federal forum
based on a federal right, the Eleventh Amendment, in

App. 65
most cases, is not a bar.”). Nonetheless, as the law currently stands with respect to integrated bars, compulsory fees and mandatory membership do not violate
the First and Fourteenth Amendments. This is true
even if the Bar engages in political speech so long as
the speech is germane to regulating the legal profession and improving the quality of legal services. In addition, to the extent the Bar has proper procedural
safeguards in place to ensure members are not required to fund non-germane speech, the First Amendment is not violated.
C. Compulsory Bar Membership and Mandatory
Fees
1. Integrated Bar Specific Case Law
In 1961, a plurality of the Supreme Court determined:
that the Supreme Court of Wisconsin, in order
to further the State’s legitimate interests in
raising the quality of professional services,
may constitutionally require that the costs of
improving the profession in this fashion
should be shared by the subjects and beneﬁciaries of the regulatory program, the lawyers,
even though the organization created to attain the objective also engages in some legislative activity. Given the character of the
integrated bar shown on this record, in the
light of the limitation of the membership requirement to the compulsory payment of reasonable annual dues, we are unable to ﬁnd

App. 66
any impingement upon protected rights of association.
Lathrop v. Donohue, 367 U.S. 820, 843 (1961). However,
the Court provided no opinion as to the correctness of
the Wisconsin Supreme Court’s conclusion that the appellant may be constitutionally compelled to contribute ﬁnancial support to political activities which he
opposes. Id. at 847-48.
In 1990, the Supreme Court afﬁrmed the requirement that lawyers admitted to practice in a State may
be required to join and pay dues to the State Bar. Keller v. State Bar of California, 496 U.S. 1, 4 (1990). However, the speciﬁc issue before Keller was the scope of
permissible dues-ﬁnanced activities in which the State
Bar may engage. The Court noted that in Abood v. Detroit Board of Education, 431 U.S. 209, 235-36 (1977),
a public union could not use a dissenting union member’s dues for ideological activities not “germane” to the
purpose for which compelled association was justiﬁed:
collective bargaining. Keller, 496 U.S. at 9, 13. Accordingly, Keller determined that a State Bar
may therefore constitutionally fund activities
germane to those goals out of the mandatory
dues of all members. It may not, however, in
such manner fund activities of an ideological
nature which fall outside of those areas of activity.
Id. at 14.
In 1994, the Ninth Circuit recognized that Lathrop
and Keller upheld the constitutionality of integrated

App. 67
bars and that an integrated bar may constitutionally
fund activities germane to regulating the legal profession and improving the quality of legal services. O’Connor v. State of Nev., 27 F.3d 357, 361 (9th Cir. 1994).
In 2014, the Supreme Court determined nonunion home health care workers (who were not fullfledged public employees) represented by a public
union in collective bargaining could not be compelled
to pay dues unless the fee provision passes exacting
First Amendment scrutiny. Harris v. Quinn, 573 U.S.
616, 648 (2014). The Court then addressed whether:
a refusal to extend Abood to cover the situation presented in this case will call into question our decisions in Keller v. State Bar of
Cal., 496 U.S. 1, . . . (1990). . . . [It does not].
In Keller, we considered the constitutionality
of a rule applicable to all members of an “integrated” bar, i.e., “an association of attorneys
in which membership and dues are required
as a condition of practicing law.” 496 U.S., at
5. . . . We held that members of this bar could
not be required to pay the portion of bar dues
used for political or ideological purposes but
that they could be required to pay the portion
of the dues used for activities connected with
proposing ethical codes and disciplining bar
members. Id. at 14. . . .
This decision ﬁts comfortably within the
framework applied in the present case. Licensed attorneys are subject to detailed ethics
rules, and the bar rule requiring the payment
of dues was part of this regulatory scheme.

App. 68
The portion of the rule that we upheld served
the “State’s interest in regulating the legal
profession and improving the quality of legal
services.” Ibid. States also have a strong interest in allocating to the members of the bar, rather than the general public, the expense of
ensuring that attorneys adhere to ethical
practices. Thus, our decision in this case is
wholly consistent with our holding in Keller.
Harris at 655-56.
To date, neither the Ninth Circuit nor the Supreme Court has recognized that Lathrop or Keller
have been abrogated and in fact, the Ninth Circuit has
afﬁrmed the continuing application of these cases as
recently as March 13, 2018. See Caruso v. Washington
State Bar Ass’n 1933, 716 F. App’x 650, 651 (9th Cir.
2018) (district court properly dismissed the action citing Keller and Lathrop). Nonetheless, plaintiffs assert
the Supreme Court’s recent decision in Janus v. Am.
Fed’n of State, Cty., & Mun. Employees, Council 31, 138
S. Ct. 2448 (2018) now controls the analysis of First
Amendment issues as applied to integrated bars.
2. The Janus Decision
On June 27, 2018, the Court issued its decision in
Janus overruling Abood, 431 U.S. 209. Speciﬁcally, the
Court held:
Neither an agency fee nor any other payment
to the union may be deducted from a nonmember’s wages, nor may any other attempt be

App. 69
made to collect such a payment, unless the
employee affirmatively consents to pay. By
agreeing to pay, nonmembers are waiving
their First Amendment rights, and such a
waiver cannot be presumed. . . . Rather, to be
effective, the waiver must be freely given and
shown by “clear and compelling” evidence. . . .
Unless employees clearly and afﬁrmatively
consent before any money is taken from them,
this standard cannot be met.
Id. at 2486. The Court found the State’s interest in
“labor peace,” while compelling, could be achieved
through less restrictive means. Id. at 2465-66.
Accordingly, plaintiffs assert not only does mandatory bar membership and compulsory fees fail the
exacting scrutiny standard described in Janus,6 but because the Bar does not obtain members’ afﬁrmative
consent before using their fees for political or ideological speech, the compulsory nature of the Bar’s
membership and fees further violates their First
Amendment rights. However, because Keller has not
been abrogated, this court is bound to follow its dictates as it is directly applicable to the cases at bar.
The Supreme Court has determined that exacting
scrutiny is wholly consistent with the holding in Keller.
Harris at 655-56. With respect to afﬁrmative consent
before using compulsory Bar dues for political speech,
6

Under exacting scrutiny, a compelled subsidy must “serve
a compelling state interest that cannot be achieved through
means signiﬁcantly less restrictive of associational freedoms. Janus, 138 S.Ct. at 2465.

App. 70
the Supreme Court has made no such proclamation
and therefore this court is prohibited from assuming
that Janus impliedly overruled Keller:
We do not acknowledge, and we do not hold,
that other courts should conclude our more recent cases have, by implication, overruled an
earlier precedent. We reafﬁrm that “[i]f a precedent of this Court has direct application in a
case, yet appears to rest on reasons rejected in
some other line of decisions, the Court of Appeals should follow the case which directly
controls, leaving to this Court the prerogative
of overruling its own decisions.”
Agostini v. Felton, 521 U.S. 203, 237, 117 S. Ct. 1997,
2017, 138 L. Ed. 2d 391 (1997).
The district court properly dismissed Eugster’s
claims relating to his compulsory membership
in the WSBA because an attorney’s mandatory membership with a state bar association
is constitutional. See Keller v. State Bar of
Cal., 496 U.S. 1, 13, 110 S.Ct. 2228, 110 L.Ed.2d
1 (1990) (“[T]he compelled association and
integrated bar are justified by the State’s interest in regulating the legal profession and
improving the quality of legal services.”);
Lathrop v. Donohue, 367 U.S. 820, 843, 81
S.Ct. 1826, 6 L.Ed.2d 1191 (1961) (Brennan, J,
plurality opinion) (state bar association may
constitutionally require compulsory membership and payment of dues without impinging
on protected rights of association). Contrary
to Eugster’s contentions, this court cannot overrule binding authority because “[a] decision of

App. 71
the Supreme Court will control that corner of
the law unless and until the Supreme Court
itself overrules or modiﬁes it.” Hart v. Massanari, 266 F.3d 1155, 1171 (9th Cir. 2001).
Eugster v. Washington State Bar Ass’n, 684 F. App’x
618, 619 (9th Cir.), cert. denied, 137 S. Ct. 2315 (2017).
Accordingly, this court should decline to apply Janus and must apply Keller to the cases at bar.7 Applying Keller demonstrates that plaintiffs’ claims fail as a
matter of law and should be dismissed.
3. Keller Application
As noted above, Keller permits the use of compulsory membership dues to fund speech germane to regulating the legal profession and improving the quality
of legal services. Arguably, the statement attributed to
the Bar in the April 2018 Bar Bulletin is germane to
that purpose. Plaintiffs assert the statement is nongermane political speech that condemns the proliferation of speech that incites violence and advocates taking action to stop such speech. But to the extent such
an interpretation is reasonable, it was made within the
speciﬁc context of promotion of access to justice, the
7

The fact that the Supreme Court recently remanded to the
Eighth Circuit a case involving mandatory bar membership for
further consideration in light of Janus does not alter the requirement that this court follow direct Supreme Court precedent. See
Fleck v. Wetch, 139 S. Ct. 590 (2018) (remanded to the United
States Court of Appeals for the Eighth Circuit for further consideration in light of Janus, 138 S.Ct. 2448). The remand does not
indicate the Supreme Court will ultimately overrule Keller.

App. 72
rule of law, and a healthy and functional judicial system that equitably serves everyone (“the [Bar] remains
committed to equity and justice for all, and to vigorously promoting the law as the foundation of a just democracy”). This is germane to improving the quality of
legal services. See Gardner v. State Bar of Nevada, 284
F.3d 1040, 1043 (9th Cir. 2002) (statements “to advance
understanding of the law, the system of justice, and the
role of lawyers, as opposed to nonlawyers, to make the
law work for everyone” are germane to improving of
the legal profession).
The Specialty Bars’ Statement appearing along
side the Bar’s statement in the April 2018 Bar publication is not a statement by the Bar, but instead a
statement authored by seven affinity bars announcing their support of the Bar’s statement, among other
statements. Although the Specialty Bars’ Statement
included rhetoric critical of the President, the Bar Bulletin routinely publishes statements from a variety of
authors with differing political viewpoints and creates
a forum for the exchange of ideas pertaining to the
practice of law. This service also is germane to improving the quality of legal services. However, even assuming the Specialty Bars’ Statement includes political
speech that is not germane to a permissible topic, and
it is a statement made on behalf of the Bar and consequently compelled speech of its members, it still would
not violate the First Amendment because the Bar has
adequate safeguards in place to protect members’ use
of dues in this manner.

App. 73
As noted above, communications within the Bulletin:
should be germane to the law, lawyers, the
practice of law, the courts and the judicial system, legal education and the Bar in its role as
a mandatory membership organization. Communications, other than permitted advertisements, should advance public understanding
of the law, legal ethics and the professionalism
and collegiality of the bench and Bar.
Bylaws, 11.1 (http://www.osbar.org/docs/rulesregs/bylaws.pdf ).8
To the extent such communications fail to adhere
to this policy, the Bylaws provide a framework for addressing those communications:
Section 12.6 Objections to Use of Bar Dues
Subsection 12.600 Submission
A member of the Bar who objects to the use
of any portion of the member’s bar dues for
activities he or she considers promotes or opposes political or ideological causes may request the Board to review the member’s
concerns to determine if the Board agrees
with the member’s objections. Member objections must be in writing and ﬁled with the
Chief Executive Ofﬁcer of the Bar. The Board
8

Plaintiffs also challenge the Bar’s general legislative policy.
However, the Bylaws also provide that the Bar’s legislative or policy activities must be reasonably related to topics related to the
legal profession. See Bylaws 12.1. Accordingly, this claim fails as
a matter of law.

App. 74
will review each written objection received by
the Chief Executive Ofﬁcer at its next scheduled board meeting following receipt of the objection. The Board will respond through the
Chief Executive Ofﬁcer in writing to each objection. The Board’s response will include an
explanation of the Board’s reasoning in agreeing or disagreeing with each objection.
Subsection 12.601 Refund
If the Board agrees with the member’s objection, it will immediately refund the portion of
the member’s dues that are attributable to the
activity, with interest paid on that sum of
money from the date that the member’s fees
were received to the date of the Bar’s refund.
The statutory rate of interest will be used. If
the Board disagrees with the member’s objection, it will immediately offer the member the
opportunity to submit the matter to binding
arbitration between the Bar and the objecting
member. The Chief Executive Ofﬁcer and the
member must sign an arbitration agreement
approved as to form by the Board.
Subsection 12.602 Arbitration
If an objecting member agrees to binding arbitration, the matter will be submitted to the
Oregon Senior Judges Association (“OSJA”)
for the designation of three active-status retired judges who have previously indicated a
willingness to serve as volunteer arbitrators
in these matters. The Bar and the objecting
member will have one peremptory challenge
to the list of arbitrators. The Bar and the

App. 75
objecting member must notify one another of
a peremptory challenge within seven days after receiving the list of proposed arbitrators.
If there are no challenges or only one challenge, the OSJA will designate the arbitrator.
The arbitrator will promptly arrange for an
informal hearing on the objection, which may
be held at the Oregon State Bar Center or at
another location in Oregon that is acceptable
to the parties and the arbitrator. The hearing
will be limited to the presentation of written
information and oral argument by the Bar
and the objecting member. The arbitrator will
not be bound by rules of evidence. The presentation of witnesses will not be a part of the
hearing process, although the arbitrator may
ask the state bar representative and the objecting member and his or her lawyer, if any,
questions. The hearing may be reported, but
the expense of reporting must be borne by the
party requesting it. The Bar and the objecting
member may submit written material and a
legal memorandum to the arbitrator no later
than seven days before the hearing date. The
arbitrator may request additional written material or memoranda from the parties. The arbitrator will promptly decide the matter,
applying the standard set forth in Keller v.
State Bar of California, 496 U.S. 1, 110 S. Ct.
2228, 110 L. Ed. 2d 1 (1990), to the expenditures to which the member objected. The
scope of the arbitrator’s review must solely
be to determine whether the matters at issue are acceptable activities for which compulsory fees may be used under applicable

App. 76
constitutional law. In making his or her decision, the arbitrator must apply the substantive law of Oregon and of the United States
Federal Courts. The arbitrator must ﬁle a
written decision with the Chief Executive Ofﬁcer within 14 days after the hearing. The arbitrator’s decision is ﬁnal and binding on the
parties. If the arbitrator agrees with the member’s objection, the Bar will immediately refund the portion of the member’s dues that are
reasonably attributable to the activity, with
interest at the statutory rate paid on the
amount from the date that the member’s fees
were received to the date of the Bar’s refund.
If the arbitrator agrees with the Bar, the
member’s objection is denied and the ﬁle in
the matter closed. Similar or related objections, by agreement of the parties, may be consolidated for hearing before one arbitrator.
Oregon State Bar Bylaws, Art. 12, Sec. 6 (http://www.
osbar.org/docs/rulesregs/bylaws.pdf ).
To comply with Keller’s safeguard requirements
for the collection of fees, the Bar must include an adequate explanation of the basis for the fee, provide a reasonably prompt opportunity to challenge the amount
of the fee before an impartial decisionmaker, and provide an escrow account for the amounts reasonably in
dispute while such challenges are pending. Keller 496
U.S. at 16 (citing Teachers v. Hudson, 475 U.S. 292
(1986)). Because the Bar speciﬁcally mandates that all
communications must be germane to the law, it has instituted the above procedure only when a member

App. 77
believes the Bar has violated that mandate. As Keller
noted,
We believe an integrated bar could certainly
meet its Abood obligation by adopting the sort
of procedures described in Hudson. Questions
whether one or more alternative procedures
would likewise satisfy that obligation are better left for consideration upon a more fully developed record.
Id. at 17.
The Bar’s Bylaws procedure provides adequate
safeguards as contemplated by Keller. The basis for the
fee does not present itself until a Bar member objects
and if the Bar agrees, it immediately refunds the fee
attributable to the activity including any interest
earned on that fee. Such procedure satisﬁes the escrow
requirement of the safeguards and the opportunity to
promptly challenge the fee. If the Bar member disagrees with the decision he or she may then seek arbitration where, if the Bar has not already explained its
decision, the member will receive an explanation of the
fee decision and have the opportunity to resolve the issue before an impartial decisionmaker.
Nothing in Hudson’s procedures mandate afﬁrmative consent prior to collecting the fee. This is especially true where the Bar’s policy already mandates
that all communications must be germane to the legal
profession. Moreover, the Bar provides all members
with an annual accounting of both projected and actual
expenses, allowing a member an opportunity to object

App. 78
if they believe an upcoming expense fails to comply
with the Bylaws regarding germane communications.
See Or. Rev. Stat. § 9.100 (requiring ﬁnancial statement submission to the Chief Justice); Bylaws § 7.2
(Board of Governors’ review of proposed budget during
public meetings).
Certain plaintiffs challenge the lack of explanation concerning their refunds upon objecting to the
statements in the April 2018 Bar Bulletin. However,
plaintiffs did not avail themselves of the very procedures that would have provided that explanation and
thus they cannot now allege a set of facts that would
demonstrate the Bar, in its application of its Bylaws,
violated their constitutional rights to procedural safeguards concerning the use of their fees for compelled
speech.
Because the Bar has adequate procedural safeguards in place to protect against compelled speech
and because mandatory Bar membership and compulsory fees do not otherwise violate the First Amendment, plaintiffs’ claims necessarily fail as a matter of
law based on the face of the pleadings and judicially
noticed facts. Accordingly, all claims should be dismissed.
E. Qualified Immunity
Plaintiffs concede the individual defendants are
immune from suit for damages and thus the motion to
dismiss based on qualiﬁed immunity is moot.

App. 79
F. Board of Governors
Plaintiffs also concede the claims against the
Board of Governors should be dismissed.
G. Motion for Partial Summary Judgment (18-1591,
Doc. 18)
Plaintiffs’ motion relies on Janus overruling Keller and as noted above, this court cannot make that
determination. Accordingly, the motion for partial
summary judgment should be denied.
CONCLUSION
A. Gruber v. Oregon State Bar, 18-cv-1591-JR
Defendants’ motion to dismiss (doc. 14) should be
denied as moot. Defendants’ motion to dismiss (doc. 41)
should be granted. Plaintiffs’ motion for partial summary judgment (doc. 18) should be denied. The case
should be dismissed and a judgment should be entered.
B. Crowe v. Oregon State Bar, 18-cv-2139-JR
Defendants’ motion to dismiss (doc. 15) should be
granted. The case should be dismissed and a judgment
should be entered.
This recommendation is not an order that is immediately appealable to the Ninth Circuit Court of appeals. Any notice of appeal pursuant to Rule 4(a)(1),
Federal Rules of Appellate Procedure, should not be
ﬁled until entry of the district court’s judgment or

App. 80
appealable order. The parties shall have fourteen (14)
days from the date of service of a copy of this recommendation within which to ﬁle speciﬁc written objections with the court. Thereafter, the parties shall have
fourteen (14) days within which to ﬁle a response to
the objections. Failure to timely ﬁle objections to any
factual determination of the Magistrate Judge will be
considered as a waiver of a party’s right to de novo consideration of the factual issues and will constitute a
waiver of a party’s right to appellate review of the ﬁndings of fact in an order or judgment entered pursuant
to this recommendation.
DATED this 1st day of April, 2019.
/s/ Jolie A. Russo
JOLIE A. RUSSO
United States
Magistrate Judge

App. 81
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
U.S. Const. Art. III - Sec. 2
The judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be
made, under their Authority;—to all Cases affecting
Ambassadors, other public ministers and Consuls; —to
all Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a
Party;—to Controversies between two or more States;—
between a State and Citizens of another State;—between Citizens of different States;—between Citizens of
the same State claiming Lands under Grants of different States, and between a State, or the Citizens thereof,
and foreign States, Citizens or Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls, and those in which a State shall be
Party, the supreme Court shall have original Jurisdiction. In all the other Cases before mentioned, the supreme Court shall have appellate Jurisdiction, both as
to Law and Fact, with such Exceptions, and under such
Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment, shall be by Jury; and such Trial shall be held in
the State where the said Crimes shall have been committed; but when not committed within any State, the
Trial shall be at such Place or Places as the Congress
may by Law have directed.

App. 82
28 U.S.C. §1254. Courts of appeals; certiorari;
certified questions
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or after
rendition of judgment or decree;
(2) By certiﬁcation at any time by a court of appeals
of any question of law in any civil or criminal case as
to which instructions are desired, and upon such certiﬁcation the Supreme Court may give binding instructions or require the entire record to be sent up for
decision of the entire matter in controversy.

OREGON REVISED STATUTES
9.010. Status of attorney and Oregon State Bar;
applicability of statutes
(1) An attorney, admitted to practice in this state, is
an ofﬁcer of the court.
(2) The Oregon State Bar is a public corporation and
an instrumentality of the Judicial Department of the
government of the State of Oregon. The bar is authorized to carry out the provisions of ORS 9.005 to 9.755.
(3) The bar is subject to the following statutes applicable to public bodies:

App. 83
(a)

ORS 30.210 to 30.250.

(b)

ORS 30.260 to 30.300.

(c)

ORS 30.310, 30.312, 30.390 and 30.400.

(d)

The Oregon Rules of Civil Procedure.

(e)

ORS 192.410 to 192.505.

(f)

ORS 192.610 to 192.690.

(g)

ORS 243.401 to 243.507.

(h)

ORS 244.010 to 244.040.

(i)

ORS 297.110 to 297.230.

(j)

ORS chapters 307, 308 and 311.

(k) ORS 731.036 and 737.600.
(4) Except as provided in subsection (3) of this section, the bar is not subject to any statute applicable to
a state agency, department, board or commission or
public body unless the statute expressly provides that
it is applicable to the Oregon State Bar.
(5) The Oregon State Bar has perpetual succession
and a seal, and may sue and be sued. Notwithstanding
the provisions of ORS 270.020 and 279.835 to 279.855
and ORS chapters 278, 279A, 279B and 279C, the bar
may, in its own name, for the purpose of carrying into
effect and promoting its objectives, enter into contracts
and lease, acquire, hold, own, encumber, insure, sell,
replace, deal in and with and dispose of real and personal property.

App. 84
(6) No obligation of any kind incurred or created under this section shall be, or be considered, an indebtedness or obligation of the State of Oregon.

9.160. Bar membership required to practice
law; exceptions
(1) Except as provided in this section, a person may
not practice law in this state, or represent that the person is qualiﬁed to practice law in this state, unless the
person is an active member of the Oregon State Bar.
(2) Subsection (1) of this section does not affect the
right to prosecute or defend a cause in person as provided in ORS 9.320.
(3) An individual licensed under ORS 696.022 acting
in the scope of the individual's license to arrange a real
estate transaction, including the sale, purchase, exchange, option or lease coupled with an option to purchase, lease for a term of one year or longer or rental
of real property, is not engaged in the practice of law in
this state in violation of subsection (1) of this section.
(4) A title insurer authorized to do business in this
state, a title insurance agent licensed under the laws
of this state or an escrow agent licensed under the laws
of this state is not engaged in the practice of law in this
state in violation of subsection (1) of this section if, for
the purposes of a transaction in which the insurer or
agent provides title insurance or escrow services, the
insurer or agent:

App. 85
(a) Prepares any satisfaction, reconveyance, release,
discharge, termination or cancellation of a lien, encumbrance or obligation;
(b) Acts pursuant to the instructions of the principals
to the transaction as scrivener to ﬁll in blanks in any
document selected by the principals;
(c) Presents to the principals to the transaction for
their selection any blank form prescribed by statute,
rule, ordinance or other law; or
(d) Presents to the principals to the transaction for
their selection a blank form prepared or approved by a
lawyer licensed to practice law in this state for one or
more of the following:
(A)

A mortgage.

(B)

A trust deed.

(C)

A promissory note.

(D) An assignment of a mortgagee's interest under a
mortgage.
(E) An assignment of a beneﬁcial interest under a
trust deed.
(F) An assignment of a seller's or buyer's interest under a land sale contract.
(G)

A power of attorney.

(H)

A subordination agreement.

App. 86
(I) A memorandum of an instrument that is to be recorded in place of the instrument that is the subject of
the memorandum.
(5) In performing the services permitted in subsection (4) of this section, a title insurer, a title insurance
agent or an escrow agent may not draft, select or give
advice regarding any real estate document if those activities require the exercise of informed or trained discretion.
(6) The exemption provided by subsection (4) of this
section does not apply to any acts relating to a document or form that are performed by an escrow agent
under subsection (4)(b), (c) or (d) of this section unless
the escrow agent provides to the principals to the
transaction a notice in at least 12-point type as follows:
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

YOU WILL BE REVIEWING, APPROVING AND
SIGNING IMPORTANT DOCUMENTS AT CLOSING. LEGAL CONSEQUENCES FOLLOW FROM
THE SELECTION AND USE OF THESE DOCUMENTS. THESE CONSEQUENCES AFFECT YOUR
RIGHTS AND OBLIGATIONS. YOU MAY CONSULT
AN ATTORNEY ABOUT THESE DOCUMENTS. YOU
SHOULD CONSULT AN ATTORNEY IF YOU HAVE
QUESTIONS OR CONCERNS ABOUT THE TRANSACTION OR ABOUT THE DOCUMENTS. IF YOU
WISH TO REVIEW TRANSACTION DOCUMENTS
THAT YOU HAVE NOT YET SEEN, PLEASE CONTACT THE ESCROW AGENT.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

App. 87
(7) The exemption provided by subsection (4) of this
section does not apply to any acts relating to a document or form that are performed by an escrow agent
under subsection (4)(b), (c) or (d) of this section for a
real estate sale and purchase transaction in which all
or part of the purchase price consists of deferred payments by the buyer to the seller unless the escrow
agent provides to the principals to the transaction:
(a) A copy of any proposed instrument of conveyance
between the buyer and seller to be used in the transaction;
(b) A copy of any proposed deferred payment security
instrument between the buyer and seller to be used in
the transaction; and
(c) A copy of any proposed promissory note or other
evidence of indebtedness between the buyer and seller
to be used in the transaction.
(8) The notice and copies of documents that must be
provided under subsections (6) and (7) of this section
must be delivered in the manner most likely to ensure
receipt by the principals to the transaction at least
three days before completion of the transaction. If copies of documents have been provided under subsection
(7) of this section and are subsequently amended, copies of the amended documents must be provided before
completion of the transaction.
(9) Failure of any person to comply with the requirements of subsections (3) to (8) of this section does not

App. 88
affect the validity of any transaction and may not be
used as a basis to challenge any transaction.

